<html>
<title> - STEROID USE IN PROFESSIONAL BASEBALL AND ANTI-DOPING ISSUES IN AMATEUR SPORTS</title>
<body><pre>[Senate Hearing 107-1126]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1126

STEROID USE IN PROFESSIONAL BASEBALL AND ANTI-DOPING ISSUES IN AMATEUR 
                                 SPORTS

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON CONSUMER AFFAIRS, FOREIGN COMMERCE AND TOURISM

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 18, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
94-608                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
      Jeanne Bumpus, Republican Staff Director and General Counsel
                                 ------                                

          SUBCOMMITTEE ON CONSUMER AFFAIRS, FOREIGN COMMERCE 
                              AND TOURISM

                BYRON L. DORGAN, North Dakota, Chairman
JOHN D. ROCKEFELLER IV, West         PETER G. FITZGERALD, Illinois
    Virginia                         CONRAD BURNS, Montana
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
BARBARA BOXER, California            GORDON SMITH, Oregon
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held June 18, 2002.......................................     1
Statement of Senator Brownback...................................     4
Statement of Senator Dorgan......................................     1
Statement of Senator Fitzgerald..................................    46
Statement of Senator McCain......................................     3

                               Witnesses

Colangelo, Jerry, Managing General Partner, Arizona Diamondbacks.    23
    Prepared statement...........................................    24
Fehr, Donald M., Executive Director, Major League Baseball 
  Players Association............................................    25
    Prepared statement...........................................    28
Greisemer, Dr. Bernard, Pediatrician.............................    37
    Prepared statement...........................................    39
Manfred, Jr., Robert D., Executive Vice President of Labor and 
  Human Resources, Major League Baseball.........................     5
    Prepared statement...........................................     7
Schwab, Greg, Associate Principal, Tigard High School............    29
    Prepared statement...........................................    32
Shorter, Frank, Chairman, United States Anti-doping Agency.......    33
    Prepared statement...........................................    35

 
STEROID USE IN PROFESSIONAL BASEBALL AND ANTI-DOPING ISSUES IN AMATEUR 
                                 SPORTS

                              ----------                              


                         TUESDAY, JUNE 18, 2002

                               U.S. Senate,
Subcommittee on Consumer Affairs, Foreign Commerce 
                                       and Tourism,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:30 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Byron L. 
Dorgan, Chairman of the Subcommittee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. We'll call the Subcommittee hearing to 
order. If we can ask that the door be closed, please.
    Good morning. This morning we are going to hold a 
Subcommittee oversight hearing on the subject of steroid use in 
baseball, and we will deal with the use of performance-
enhancing drugs in other sports, as well.
    Following a rather lengthy article in Sports Illustrated on 
the issue of steroid use in baseball, and other reports over a 
long period of time about the use of performance-enhancing 
drugs, we decided to hold this hearing. Senator McCain had sent 
a request for a hearing, and I felt a hearing was appropriate, 
as well. And so this is an oversight hearing that will not 
necessarily lead to Federal legislation, although we hope to 
hear about this issue this morning from a number of different 
points of view and, from that, evaluate what, if any, 
legislative action is necessary.
    Let me say that, first of all, I'm a big baseball fan. I 
grew up playing baseball in a town of 400 people. I grew up 50 
miles from the nearest daily newspaper. I rushed to get it 
every day so that I could get to the sports page to try to find 
out, in that tiny little piece in a daily newspaper of a town 
of 10,000, just a little information every day of what was 
happening in baseball. I was quick to get there every single 
day to find out how my favorite player, Willie Mays, and 
others, were doing. So I come to this with a love of baseball, 
an appreciation of the splendid athletes and the owners and 
others who are involved in baseball.
    Baseball is truly ``America's pastime,'' as it's called. To 
become a big leaguer is synonymous with success. And serious 
questions these days are raised about that, and we want to 
explore them in some detail this morning.
    Let me start by saying we invited a fair number of baseball 
players, especially retired players, to be with us this 
morning. None of them chose to be here at this hearing. But 
serious questions are being raised by baseball players 
themselves, both retired and active players, about what some 
say is an epidemic of performing-enhancing drugs among many of 
baseball's most talented competitors.
    Fairness should set the standard for the next generation of 
amateur and professional athletes, not performance-enhancing 
drugs.
    The article I mentioned, which was an investigative article 
in a Sports Illustrated magazine, described former National 
League Most Valuable Player Ken Caminiti as saying that he was 
on steroids when he won the prestigious Most Valuable Player 
award in 1996. Caminiti maintains that the pressures to perform 
are so great, he wouldn't discourage others from using 
steroids. He also said that at least half of the Major League 
Ballplayers use steroids. We invited Mr. Caminiti to be present 
today, as well.
    Another retired baseball star, Jose Canseco, is working on 
a book in which he reportedly will detail his earlier claims 
that up to 85 percent of his former colleagues use steroid 
drugs. These claims, by some, have been discounted as not at 
all related to fact. But they raise questions, and we want to 
have people respond to those questions today.
    Mr. Caminiti says he started using steroids in 1996. Prior 
to that time, he had never hit more than 26 home runs in a 
season. At the end of that year, however, he hit 40 home runs, 
had a .326 batting average, and was selected the Most Valuable 
Player in the National League.
    The medical consequences of performance-enhancing drugs, 
and specifically steroids, can be devastating. For example, 
steroids can cause heart disease, stroke, aggressive behavior, 
and other kinds of dysfunctions. The damage to baseball's 
credibility, however, can be as great. Unlike professional 
football, basketball, or the Olympics, Major League Baseball, 
at the present time, has no drug testing program. 
Unfortunately, no current or professional baseball players, as 
I said, have responded to our invitation today, but we will 
hear from owners, representatives of the baseball players, and 
others at this hearing.
    So let me just say, as a fan of this wonderful sport, that 
I want this sport to produce splendid athletes that can be role 
models for America's youngsters. But I certainly don't want to 
see America's pastime become a pastime in which these wonderful 
athletes engage in the use of performance-enhancing drugs in 
order to make it. That is not what baseball should be about. 
Drugs have no place in our culture, and certainly not in 
America's big-league ballparks.
    So, as I said, Senator McCain also had requested, with a 
letter, that we hold a hearing on this subject. I'm pleased to 
be able to chair that hearing today.
    And let me call on my colleague, Senator McCain, for 
opening comments.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Well, thank you, Senator Dorgan, for 
chairing the hearing to discuss the prevalence and effects of 
performance-enhancing drugs in Major League Baseball and sports 
in general. And I welcome our witnesses and thank them for 
appearing today.
    I think that everyone should be aware that this Committee 
does have an oversight responsibility of professional sports 
and the Olympics, and we do spend time on these issues. And 
this one, I think, is important, beyond its effect on Major 
League Baseball players. Like it or not, professional athletes 
serve as role models to our kids. Mark McGwire's admission, in 
1998, that he was using androstenedione to enhance his 
performance led to a fivefold increase in sales of that dietary 
supplement. Andro is currently legal and in some ways, I think 
our witnesses will tell us today, it has some of the same 
physical effects and adverse health consequences as anabolic 
steroids.
    I'm concerned about baseball. I'm concerned about the 
possibility of a looming strike. I'm concerned about the health 
of the baseball players themselves. But I'm more concerned 
about the effect this recent spate of publicity has on young 
athletes all over America. If somehow young athletes believe 
that it is not only acceptable, but that the way to become a 
Major League Baseball player is through the use of anabolic 
steroids, that's a terrible message to send to young American 
men and women.
    So I think this issue is more important than just whether a 
group of highly paid baseball players are using substances 
that, as witnesses will testify, can be very damaging to their 
health. It's the example that is set for young Americans that I 
am concerned about and that we should all be concerned about.
    I've gotten to know Mr. Fehr very well. I think he's a 
fair, decent and eloquent representative of the players. I've 
had the opportunity of knowing Jerry Colangelo for many years, 
and I'm very pleased that he's here today. And I hope that Mr. 
Colangelo, in his testimony, will touch on the fact that the 
NBA and the NFL--he was involved in the NBA before he was 
involved in organized baseball--have somehow been able to enact 
rules and regulations as far as drug testing is concerned, and 
I hope that baseball players and the players union will look to 
what's being done in the NBA and the NFL as perhaps a model for 
what can be adopted by Major League Baseball players.
    So I thank you, Mr. Chairman, and I, again, want to point 
out that this is more important than whether a bunch of highly 
paid athletes are using anabolic steroids. That's the reason 
why I think this hearing today is so important. I hope that the 
players, as well as the owners, understand the damage that this 
can do to the credibility of the game. I don't think any Major 
League Baseball player in the record books would like to have 
an asterisk next to his name for having used steroids in order 
to enhance his performance in an attempt to attain a lasting 
record as an outstanding athlete.
    So, Mr. Chairman, I thank you for the hearing, and we look 
forward to hearing the witnesses today.
    Senator Dorgan. Senator McCain, thank you.
    Senator Brownback?

               STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. Thank you, Mr. Chairman, and thank you 
for holding the hearing.
    I want to join my colleague from Arizona in his comments 
about the impact of this being broader than just the players 
themselves. Baseball is America's national pastime and holds a 
special place in Americana and our hearts.
    It's certainly with dismay that I've read so many 
disturbing comments made by today's ballplayers who got into 
the use of performance-enhancing drugs and steroids and illegal 
substances, other than ones that are prescribed by doctors.
    Clearly, there seems to be a major problem and a major 
disappointment requiring redress. It seems to me the simplest 
course of action would be, as my colleague from Arizona has 
stated, for Major League Baseball to follow the National 
Football League and the National Basketball Association and 
adopt a no-tolerance policy, complete with year-round testing 
as well as medical treatment and counseling for violators. 
While these policies may not achieve perfect results, they are 
an honest effort to do right by their sport, meet the 
expectations of the fans, and look after the long-term health 
and welfare of their players.
    Now, I understand that Major League Baseball, which 
supports a no-tolerance policy, is constrained by its 
collective bargaining agreement with its players and 
management, and cannot unilaterally impose such a steroid-
testing policy. I would urge Major League ballplayers to match 
management's concern in this matter and employ their 
representatives to achieve a resolution. I'm confident that 
management and the players can work through this to everyone's 
satisfaction, especially the fans and the young children, young 
players all across the country watching major league sports, 
who I believe do not want steroid-assisted cheating in a game 
they love. This is a matter internal to baseball, and that is 
where it can best be addressed, and I really hope, for the 
future of the sport and the future of the young players 
watching those professional athletes all across this country 
and across the world, that it will be solved by the sport.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Brownback, thank you very much.
    Let me make a very important point. I used the names of two 
retired baseball players today only because those players 
themselves have been quoted. I think it's important that we not 
use names of other players. Our goal is not to tarnish the 
reputation of players. I only used the names of two retired 
players who had already admitted steroid use and wanted to 
speak about it publicly. And we had invited both of them to 
come to this hearing.
    The Senate has scheduled a cloture vote at 9:45, which is 
in about two minutes. What I would like to do, is to recess the 
hearing for two minutes, having taken these opening statements, 
and then we will go vote and come back. And at that point, 
we'll call the witnesses to the witness table and begin. I 
don't want to interrupt the testimony of the witnesses.
    So we will take a ten-minute recess.
    [Recess.]
    Senator Dorgan. We'd ask if we could reconvene. And if our 
witnesses could take their seats at the table, I will introduce 
them.
    Starting on my left, we have Mr. Robert Manfred, who is the 
executive vice president for Labor Relations in the Office of 
the Commissioner for Major League Baseball. We have Mr. Jerry 
Colangelo, the managing general partner for the Arizona 
Diamondbacks, which won the World Series last year. Mr. 
Colangelo also owns the National Basketball Association's 
Phoenix Suns team. We also have Donald Fehr, who is the 
executive director and general counsel for the Major League 
Baseball Players Association, which is the player's union. He's 
the lead negotiator for the players in their collective 
bargaining with owners. And we have Mr. Frank Shorter, chairman 
of the board of United States Anti-Doping Agency, who is a 
former Olympic athlete of substantial renown. He won the gold 
medal in the marathon at the 1972 Olympic Games in Munich, 
Germany. We have Mr. Greg Schwab, the former all-conference 
offensive lineman for the University of Oregon, who took 
steroids in his attempt to make the San Diego Chargers football 
team. Mr. Schwab has since become an advocate against steroid 
use, and will help us understand the pressure that high school 
athletes feel to take steroids or other performance-enhancing 
supplements. And we have Dr. Bernard Greisemer, a pediatrician 
from Missouri, who has written extensively about steroid use 
and teenagers and also has worked as a medical officer at the 
past four Olympic Games.
    Your entire statements will be made part of the permanent 
record. You may summarize, and we will ask all of you to 
present your statements, following which we will ask questions.
    Mr. Manfred, why don't you proceed?

 STATEMENT OF ROBERT D. MANFRED, JR., EXECUTIVE VICE PRESIDENT 
      OF LABOR AND HUMAN RESOURCES, MAJOR LEAGUE BASEBALL

    Mr. Manfred. Thank you. Good morning. My name is Robert 
Manfred, and I'm executive vice president of Labor and Human 
Resources for Major League Baseball.
    In recent weeks, the issue of steroid use in Major League 
Baseball has received considerable attention as a result of 
revelations by two prominent former players. As I sit here 
today, I cannot tell you whether all of the statements made by 
these former players are accurate.
    What I can tell you is that long before anybody was writing 
about the use of steroids in the major leagues, our office, at 
the direction of Commissioner Selig, undertook a multifaceted 
initiative designed to deal with the related problems of 
steroids and nutritional supplements.
    The Commissioner began this initiative approximately two 
years ago by convening a meeting of Major League Baseball's 
medical advisor, Dr. Robert Millman, and group of team doctors. 
This group of respected physicians came to the meeting burdened 
by two related concerns. First, they were worried about what 
they perceived to be a growing trend of steroid use in both the 
major leagues and the minor leagues. The doctors believed that 
steroids were a threat to the health of our players and to the 
integrity of our game.
    Second, the team doctors were concerned that steroid use by 
Major League players was sending a very dangerous message to 
young people who dream about becoming major league players. The 
doctors all agreed that steroid use by young people created 
health risks even greater than those faced by adults.
    The team physicians also came to the meeting armed with 
troubling data concerning injuries to major league players. The 
discussion centered on facts such as these. There are 
approximately 900 major league players on active rosters at any 
given time. In 2001, that group of 900 players accounted for 
467 trips to the disabled list. This is a 16 percent increase 
from just three years earlier.
    Not only are more players going on the disabled list, but 
their period of disability is increasing. In 2001, players 
spent a total of 27,430 days on the disabled list, compared to 
slightly more than 22,000 just three years before. This is an 
increase of 20 percent. The average stay on the disabled list 
has also increased.
    The cost of payments to disabled players increased from 
$129 million in 1998 to a staggering $317 million last year. 
While the doctors could not scientifically establish a causal 
connection between the increase in injuries and steroid use, 
there was a strong consensus that steroids were a contributing 
factor. In this regard, the doctors noted a change in the type 
of injuries suffered by players, with many of the injuries 
being associated with significantly increased muscle mass 
operating on the same joints, ligaments, and tendons.
    Last, the doctors raised a topic that should be of great 
concern to Congress. They noted that since the passage of the 
Dietary Supplement Health and Education Act, nutritional 
supplement manufacturers have been given much greater freedom 
to market potentially dangerous products essentially without 
regulation, provided that the products are not claimed to 
prevent, diagnosis, treat, or cure a disease or illness. Many 
of the doctors expressed the view that some nutritional 
supplements, particularly androstenedione, had all of the 
properties of an anabolic steroid.
    In the wake of this meeting, Commissioner Selig spearheaded 
the development of a four-point initiative to address the issue 
of steroids in professional baseball. The goal of the 
initiative was and is to eliminate the use of steroids and 
dangerous nutritional supplements in professional baseball.
    The first point in the program involved the continued 
funding of scientific research on the nutritional supplement 
androstenedione in an effort to confirm that the supplement, in 
fact, has the characteristics of an anabolic steroid. In 
conjunction with the players association, the Office of the 
Commissioner funded research on this topic at Harvard. In 
brief, the study indicates that, taken in sufficient 
quantities, androstenedione elevates the level of testosterone 
in the body in the same manner as an anabolic steroid. I 
recommend the article that summarizes this research to you and 
urge Congress to consider passing legislation that would 
regulate androstenedione and related substances, such as DHEA.
    The second point in the Commissioner's initiative was 
education. We felt that it was important for our major league 
and minor-league players to understand the essential facts 
related to steroids and nutritional supplements and the health 
risks associated with those substances. Again in conjunction 
with the players association, an impressive educational program 
was developed. Dr. Millman and Dr. Joel Soloman, the players 
association's medical advisor, jointly authored a booklet 
entitled ``Steroids and Nutritional Supplements,'' which has 
been distributed to all major league and minor league players. 
In addition, over the last two years, all major league and 
minor league players have attended in person steroid education 
programs.
    The third point in the Commissioner's initiative was the 
promulgation of the Minor League Drug Prevention and Treatment 
Program. The new policy implemented by the Commissioner 
dramatically increased the role of the Office of the 
Commissioner in minor league testing, banned the use of all 
steroids and androstenedione, subjected all minor league 
players to three random tests each year, mandated 
individualized treatment programs for first offenders, required 
discipline for subsequent offenders, and established 
confidentiality as a central tenet of the program. Last year, 
the Commissioner's office spent more than a million dollars 
just on the testing component of this program.
    The fourth point in the Commissioner's initiative was to 
negotiate a steroid program applicable to major league players. 
I say ``negotiate,'' because drug testing is, of course, a 
mandatory topic of collective bargaining with the players 
association.
    Contrary to the impression created by Mr. Fehr's written 
statement, we do not have an agreed-upon steroid policy in 
Major League Baseball. The Commissioner has unilaterally 
promulgated a policy on steroids that the union has 
consistently said is not binding on its players. While we have 
worked together in certain situations, the current regulation 
is ad hoc at best, and dysfunctional at worst.
    To address this problem, we made a comprehensive proposal 
on steroids to the players association last March. That 
proposal would ban the use of steroids and androstenedione, 
would require three tests for all major league players each 
year, would provide treatment programs for first offenders, 
would require discipline for repeat offenders, would establish 
confidentiality as a central tenet of the program, and would 
involve the participation of the players association and its 
medical advisor in the administration of the program.
    To date, we have received no substantive response from the 
players association to our March proposal. We remain hopeful, 
however, that the Players Association will come forward and 
address this issue in a meaningful way at the collective 
bargaining table. Over the long term, an effective, 
confidential, treatment-based program, including testing, will 
be good for all players and for the game.
    [The prepared statement of Mr. Manfred follows:]

Prepared Statement of Robert D. Manfred, Jr., Executive Vice President 
          of Labor and Human Resources, Major League Baseball

    Good morning. My name is Robert Manfred and I am Executive Vice 
President of Labor and Human Resources for Major League Baseball. I 
report to Commissioner Allan H. Selig and am principally responsible 
for the collective bargaining relationships with the Major League 
Baseball Players Association (``MLBPA'') and the World Umpires 
Association (``WUA''). I have day-to-day responsibility for the drug 
policies that apply to these unionized employees, as well as the 
employees of Central Baseball in New York.
    In recent weeks, the issue of steroid use in Major League Baseball 
has received considerable attention as a result of revelations by two 
prominent former players, one through statements made in a Sports 
Illustrated article. As I sit here today, I cannot tell you whether all 
of the statements made by those former players are accurate. What I can 
tell you is that long before anyone was writing about steroids in the 
Major Leagues, our office, at the direction of Commissioner Selig, 
under took a multi-faceted initiative designed to deal with the related 
problems of steroids and nutritional supplements.
    The Commissioner began this initiative approximately two years ago 
by convening a meeting of respected team doctors as well as Major 
League Baseball's medical advisor, Dr. Robert Millman. This group of 
respected physicians came to the meeting burdened by two related 
concerns. First, they were concerned about what they perceived to be a 
growing trend of steroid use at the Major League and minor league 
levels. The doctors all agreed that steroids were a threat to the 
health of our players and to the integrity of our game. Second, the 
team doctors were concerned that steroid use by Major League players 
was sending a very dangerous message to young people who dream about 
becoming Major League players. The doctors all agreed that steroid use 
by young people created health risks even greater than those faced by 
adults.
    The team physicians also came to the meeting armed with troubling 
data concerning injuries to Major League players. The discussion 
centered on facts such as these:

  <bullet> There are between 850 and 900 players on active Major League 
        rosters and in 2001 that group of players accounted for 467 
        trips to the disabled list.

  <bullet> Those 467 trips to the disabled list was a 16 percent 
        increase from 1998, just three seasons earlier.

  <bullet> Not only are more players going on the disabled list, but 
        their period of disability is increasing. In 2001, players 
        spent a total of 27,430 days on the disabled list compared to 
        22,100 days in 1998, an increase in nearly 20 percent. The 
        average stay on the disabled list increased from 55 to 58 days.

  <bullet> The cost of payments to disabled players increased from $129 
        million in 1998 to a staggering $317 million in 2001. This 
        trend appears to be continuing in 2002.

    While the doctors could not scientifically establish a causal 
connection between the increase in injuries and steroid use, there was 
a strong consensus that steroid use was a major contributing factor. In 
this regard, the doctors noted a change in the type of injuries 
suffered by players, with many of the injuries being associated with a 
significant increase in muscle mass.
    Last, the doctors raised a topic that should be of great concern to 
Congress. They noted that since the passage of the Dietary Supplement 
Health and Education Act, nutritional supplement manufacturers have 
been given much greater freedom to market potentially dangerous 
products, essentially without regulation, provided that the products 
are not claimed to prevent, diagnose, treat or cure a disease or 
illness. Many of the doctors expressed the view that some nutritional 
supplements, particularly androstenedione, had all of the properties of 
an anabolic steroid, yet they could be marketed without the 
restrictions imposed by the Anabolic Steroid Control Act of 1990.
    In the wake of this meeting, Commissioner Selig spearheaded the 
development of a four-point initiative to address the issue of steroids 
in professional baseball. The goal of the initiative was and is to 
eliminate the use of steroids and dangerous nutritional supplements in 
professional baseball for the following reasons: (1) To protect the 
health of our players, (2) to preserve the integrity of the competition 
on the field, and (3) to prevent young men from facing the difficult 
choice between using steroids or facing a competitive disadvantage in 
pursuing their life-long dream of playing Major League Baseball.
    The first point in the program involved the funding of scientific 
research on the nutritional supplement androstenedione in an effort to 
confirm that the supplement in fact has the characteristics of an 
anabolic steroid. In conjunction with the MLBPA, the Office of the 
Commissioner funded research on this topic at Harvard University. The 
results of that study are set forth in an article attached hereto as 
Exhibit A. * In brief, the study indicates that, taken in sufficient 
quantities, androstenedione elevates the level of testosterone in the 
body in the same manner as an anabolic steroid. I recommend this 
article to you and urge Congress to consider passing legislation that 
would regulate androstenedione and related substances such as DHEA 
(dihydroepiandrosterone).
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.
---------------------------------------------------------------------------
    The second point in the Commissioner's initiative was education. We 
felt it was important for our Major League and minor league players to 
understand the essential facts related to steroids and nutritional 
supplements and the health risks associated with those substances. 
Again in conjunction with the MLBPA, an impressive educational program 
was developed. Dr. Millman and Dr. Joel Soloman, the MLBPA's medical 
advisor, jointly authored a booklet entitled ``Steroids and Nutritional 
Supplements'' which has been distributed to all Major League and minor 
league players and is attached hereto as Exhibit B. In addition, during 
spring training, all players were required to attend educational 
sessions conducted by physicians selected by Central Baseball.
    The third point in the Commissioner's initiative was the 
promulgation of the Minor League Drug Prevention and Treatment Program, 
a copy of which is attached hereto as Exhibit C. Historically, each 
individual Club has determined whether and how to test and treat the 
non-union players in its minor league system. Prior to the 2001 season, 
the Commissioner determined that this system of individual Club control 
was not as effective as it needed to be. The new policy implemented by 
the Commissioner dramatically increased the role of the Office of the 
Commissioner, banned the use of all steroids and androstenedione, 
subjected all minor players to three random tests each year, mandated 
individualized treatment for first offenders, required discipline for 
subsequent offenders and established confidentiality as a central 
tenant of the program. Last year, the Commissioner's Office spent more 
than $1,000,000 just on the testing component of the program. Even at 
this early stage, we believe this program has been effective in dealing 
with the steroid issue.
    The fourth point in the Commissioner's initiative was to negotiate 
a steroid program applicable to Major League players. I say 
``negotiate'' because drug testing is, of course, a mandatory topic of 
collective bargaining with the MLBPA. On behalf of the Commissioner and 
the Clubs, I made a comprehensive proposal on steroids to the MLBPA 
last March. That proposal would ban the use of steroids and 
androstenedione, would require three tests for all Major League players 
each year, would provide treatment programs for first offenders, would 
require discipline for the repeat offenders, would establish 
confidentiality as a central tenant of the program and would involve 
the participation of the MLBPA and its medical advisor in the 
administration on the program.
    To date, we have received no substantive response from the MLBPA to 
our March proposal. We remain hopeful, however, that the MLBPA will 
come forward and address this issue in a meaningful way at the 
collective bargaining table. Over the long-term, an effective, 
confidential, treatment-based program including testing will be good 
for all players and the game.
                                 ______
                                 
          (Exhibit B)    Steroids and Nutritional Supplements

Introduction
    This pamphlet is intended to provide professional baseball players 
with information concerning the use, abuse, and potential adverse 
consequences of steroids, nutritional supplements and other substances 
believed to augment or enhance training routines or performance. No 
pamphlet, however, can serve as a substitute for personalized 
professional consultation. Consequently, no player should take any 
substances reported or claimed to improve training capacity, to 
increase strength and endurance, or to improve performance without 
first consulting his personal physician or a physician knowledgeable in 
these areas.

Steroids
    A distinction has to be drawn between the kinds of steroids with 
which virtually every athlete is familiar, those designed to reduce 
inflammation, swelling or pain, and the kinds or steroids which are 
under discussion here, those designed to increase strength or muscle 
mass. The anti-inflammatory steroids are called glucocorticosteroids, 
and athletes are most familiar with them under the names of cortisone 
or prednisone. The steroids designed to increase muscle size and 
strength are called anabolic androgenic steroids (AASs). ``Anabolic'' 
indicates muscle building properties; ``Androgenic'' indicates 
masculinizing properties.
    The prototypical AAS is testosterone, the hormone produced by the 
testes in men. Testosterone has two separate, but related, effects. One 
is the anabolic effect, which is to build muscle size, lean body mass 
and body weight, which in turn may provide greater strength and speed. 
The other is its androgenic, or masculinizing effect, which accounts 
for normal male characteristics, including the distribution of facial 
and body hair, deep voice and reproductive and sexual function.
    Testosterone is necessary for normal male structure and function. 
There are certain medical conditions in which testosterone may be 
prescribed by a physician, such as the failure to produce it in 
adequate amounts, which can lead to a variety of physical and emotional 
problems. Such use in professional athletes, however, is rare.
    Also, administration of pure testosterone has not been useful as a 
medication or for muscle building or performance enhancement because 
the compound is rapidly metabolized and inactivated in the body. In the 
laboratory, however, testosterone has been altered in significant ways 
to prolong its effects and to increase its potency. For example, 
substitution of molecules in certain locations on the testosterone 
molecule renders the drug effective when administered by injection into 
muscle; substitution of another molecule in a similar position renders 
the drug resistant to inactivation by the liver and therefore orally 
effective. The drug Primobolan (testosterone enanthate) is effective 
for intramuscular use; the drug Metandren (methyl testosterone) renders 
it active by mouth. Other drugs such as Deca-Durabolin (Nandrolone) and 
Winstrol are synthetic analogues of testosterone (i.e. drugs developed 
in laboratories with action similar to testosterone). As the potency of 
the anabolic effects is increased, so are the potential and actual side 
effects of these preparations.
    All AASs are controlled substances under federal law. The Anabolic 
Steroid Control Act of 1990 classifies AASs as Schedule III drugs, 
requiring a doctor's prescription for use. There are serious penalties 
for the illegal manufacture, distribution, and non-medically prescribed 
use of AAS. They also are prohibited in baseball. Beginning with the 
2001 season, the Commissioner's Office will be undertaking in both the 
minor leagues and, in conjunction with the Players Association, at the 
major league level, steps intended to eliminate the prohibited use of 
steroids.
    The regulation of AASs by the federal government predictably has 
led to their sale or distribution in a ``black market.'' The result is 
that there are many AASs which either are unsafe because of the lack of 
testing and safety controls or are lawfully produced but, because they 
are secured illegally, lack appropriate labeling. Athletes have been 
known to utilize AASs which contain impurities, false dosages and have 
other particularly dangerous characteristics. Black market AASs should 
be avoided at every turn.
    Since many of the unwanted adverse effects of the AASs are related 
to their androgenic (masculinizing) properties, attempts have been made 
to develop new chemicals that separate the anabolic effects from the 
androgenic effects. There appears, however, to be a common site of 
action (receptor) for the androgenic and anabolic properties of the 
AASs so that to date these attempts have not been successful. The 
result is that athletes who take AASs for their anabolic properties, to 
increase lean body mass, strength or endurance, cannot avoid the 
undesired and often harmful androgenic properties of the steroid being 
taken.
    It is likely that athletes engaged in certain sports could derive 
greater benefit from AASs than other athletes. The dose and pattern of 
use vary between athletes and certainly between sports. For example, 
weight lifters, whose focus is on muscle mass and strength, probably 
would benefit from the use of high doses of AASs, whereas a fencer 
might derive less benefit or even negative results. Between the two, 
mixed results might be expected. In baseball, for example, the 
additional muscle mass associated with AASs presumably might enable 
batters to hit the ball farther, but the frequency with which the 
hitter might be able to do that might be undercut by the reduction in 
flexibility and adaptability that could be expected from increased 
muscle mass. Also, since the increase in muscle mass associated with 
AAS use is not accompanied by a corresponding increase in tendon or 
ligament or joint size or strength, the risk of serious injury is 
increased. This is a major problem with the use of AASs.
    All AASs have harmful side effects, which vary with the particular 
AAS, its dosage, the method and frequency of its use, and the length of 
time over which it is used. Patterns of use include ``stacking'', which 
is the use of several compounds at the same time for their additive 
effects (some athletes have used up to eight compounds simultaneously) 
and ``pyramiding,'' where the drugs are taken in cycles of increasing 
doses then decreasing doses with periods of no drug use. Other drugs 
are sometimes used to minimize the side effects of the AASs or 
withdrawal that may occur when they are stopped. Some of the side 
effects are reversible, but others are not. The side effects may 
include:

Effects on the musculoskeletal system
    Injuries are common among steroid users. As noted earlier, a 
principal reason for this is that the increase in muscle mass or 
increased speed associated with AAS use is not accompanied by a 
proportionate increase in the strength of tendons, ligaments or joints. 
In recent years, there is evidence that the frequency of injury in 
baseball players has increased and might be related to increased muscle 
mass and strength. More people have been on disability lists for longer 
periods of time. In fact, AAS use may have an actual negative effect on 
tendons and ligaments, there being at least one study which showed that 
chronic use of steroids reduced tendon strength. Increased injury may 
also relate to the rapidity of weight gain, such as an athlete gaining 
30 or 40 pounds in a period of time much too short for his body to 
adapt to such a significant increase in size, and thereby heightening 
the risk of injury.
    AASs cause the premature closing of the growing ends of bones in 
young people who are still growing. The persistence of growth of long 
bones varies among individuals though it would appear that anyone under 
the age of 19 may be at risk for stunting their growth with the use of 
these drugs. The height reducing effect of AASs in young people is 
irreversible. Unfortunately, young people often lack judgment and have 
a sense of invulnerability such that high doses of these drugs may be 
taken at early ages.

Effects on personality
    It is well documented that AASs can cause a variety of mental 
changes, including irritability, excessive aggression, mania, paranoia, 
depression (frequently accompanied by suicidal thoughts), anxiety and 
panic. AAS use can also lead to psychological and physical dependence 
which makes it hard to curtail use, and dependent users have 
experienced a variety of withdrawal symptoms when attempting to stop 
using. A reasonably common problem in AAS users could be called 
``reverse anorexia'' where they become fearful of not continuing to get 
heavier, more muscular and more masculine. This is a particularly 
dangerous property of AAS use, since most of the unwanted side effects 
are more likely to occur the longer the use continues and the higher 
the dose taken.

Hormonal and other effects
    By a feedback mechanism, AASs suppress the normal production of 
testosterone in the body. A reduction in naturally produced 
testosterone can lead to decreased sperm production, with testicular 
atrophy, sexual problems and thyroid problems. High doses of AASs lead 
to male pattern baldness, acne, prostate enlargement, thyroid problems 
and a decrease in the high density lipoproteins (HDL), the so-called 
``good cholesterol,'' and an increase in the ``bad cholesterol,'' the 
harmful low density lipoproteins (LDL). These changes can increase the 
risk of heart disease and stroke. AASs also cause salt and water 
retention, predisposing people to high blood pressure and heart 
failure.
    In addition, when AASs and testosterone are metabolized by the 
body, they break down into female hormones. It is this feminizing 
effect of the high doses of AASs that accounts for the increase in 
breast size (gynecomastia) that male AAS users sometimes experience.
    The adverse effects of the AASs relate also to the method of their 
administration. AASs are generally used orally or intramuscularly. If 
taken orally, most of the AAS is inactivated by the liver, resulting in 
an increased risk of decreased liver functions, liver tumors and cysts. 
If, on the other hand, the AAS is taken by injection, the risks 
associated with needle use emerge, including HIV, hepatitis and other 
infections.
Among the more commonly used AASs are:



           Injectable AAS                          Oral AAS

Deca-Durabolin (Nandrolone           Anadrol-50 (Oxymetholone)
 decanoate)
Depo-testosterone (Testosterone      Anavar (Oxandrolone)
 cypionate)
Delatestryl (Testosterone            Dianabol (methandrostenealone)
 enanthate)
Durabolin (Nandrolone                Halotestin (Fluoxymesterone)
 phenpropionate)
Primobolan (Metheneolone enanthate)  Maxibolin (Ethylestrenol)
                                     Metandren (methyltestosterone)
                                     Nibil (methanalone acetate)
                                     Nilevar (norenthandorolone)
                                     Winstrol (Stanozolol)



Nutritional Supplements
    There are a host of nutritional supplements on the market. They 
include vitamins, minerals, amino acids, plant derivatives, and other 
natural and synthetic substances, and they come in a variety of forms, 
including powders, tablets, and liquids.
    All of the supplements claim to improve an athlete's sense of well 
being, strength or performance in one fashion or another. In assessing 
the utility of, and the risk of taking these supplements, however, an 
initial distinction should be drawn between supplements whose claims 
are based on the alleged capacity of the product to increase 
testosterone levels, and those that do not make such claims, but rather 
rely upon the particular properties of the supplement to allegedly 
enhance endurance or strength in some other way. Supplements which 
increase testosterone levels, if they really do that, are more fairly 
regarded as steroids.

Androstenedione and DHEA
    In this latter class of nutritional supplements, the most common 
are those containing either DHEA (dihydroepiandrosterone) or 
androstenedione. Both effectively ``become'' testosterone because of 
the way testosterone is produced in the body. DHEA is a naturally 
occurring hormone which, through interaction with other chemicals in 
the body, converts into androstenedione. Androstenedione, in turn, by a 
similar process, converts into testosterone. The theory behind DHEA-
based supplements is that they will produce more androstenedione, which 
eventually will increase the user's testosterone level. Predictably, 
the theory behind andro-based supplements is that they too will 
increase testosterone levels, and do so more directly than would be the 
case through an increase in DHEA levels.
    Precisely because DHEA is one step further removed in the 
testosterone producing chain of reactions, the impact of supplements 
containing it is more speculative. Indeed, there has been very little 
scientific testing of such supplements. They are, nonetheless, quite 
expensive.
    More is known about androstenedione, largely as a function of a 
study jointly sponsored by Major League Baseball and the Players 
Association. The baseball study came on the heels of another study 
which suggested that testosterone levels were not increased by 
administration of androstenedione. The baseball study, however, 
utilized dosage levels significantly above those recommended by the 
manufacturer, and increases in testosterone levels were found in the 
study's subjects. It is this finding, a major contribution to knowledge 
about androstenedione and about which the sport should be proud, that 
indicates that androstenedione, from a practical perspective, should be 
regarded as a steroid.
    The reason androstenedione is not a regulated steroid appears to be 
simply a matter of timing. In 1994, Congress passed the Dietary 
Supplement Health and Education Act. This law gives nutritional 
supplement manufacturers greater freedom to market products as long as 
they do not claim to prevent, diagnose, treat or cure an illness or 
disease. The result was the emergence of innumerable nutritional 
supplements that were not subject to any stringent chemical analysis. 
Now that we know that at least some androstenedione-based products do 
increase testosterone levels, it may be time for the federal government 
to revisit whether such products should be placed alongside other 
steroids covered by the Anabolic Steroid Control Act.
    As noted earlier, it appears that testosterone levels are only 
increased by administration of androstenedione when the manufacturer's 
suggested dosage is exceeded, yet, any time that is the case, there is 
increased risk of adverse side effects. Thus, a quandary related to use 
of such supplements: if the player takes androstenedione at the 
recommended level, he is unlikely to receive significant benefit; if, 
on the other hand, he exceeds the recommended level, he may achieve the 
muscle mass increase he seeks, but only at the expense of increasing 
the possibility of adverse side effects.
    Finally, while andro-based supplements are purchasable over-the-
counter and are legal to take, they are, for that very reason, readily 
available to young people. Seeking to improve athletic performance, 
they may take large doses at frequent intervals and put themselves at 
risk of serious side effects. Players may wish to keep this in mind in 
determining the benefits and detriments of steroid-type nutritional 
supplements.

Creatine, Carnetine and other supplements
    Many factors go into whether a player should take other nutritional 
supplements. These include the nature of the particular substance 
purporting to bestow the claimed effect (``what it is''), its 
concentration in the product available for sale (``how much of it is in 
the product''), its dosage, both suggested and actual (``how much does 
it say I should take; how much do I take''), and its purity (``how 
refined is it''). In addition, an individual's body chemistry is 
important, since no two individuals react exactly the same to any 
substance, including everyday foods and beverages.
    Other factors may also play a role in determining what effect, if 
any, a nutritional supplement may have. They include whether the 
individual is taking other substances, including prescribed medicines, 
and the interaction between the supplement and those other substances; 
the time of day the supplement is taken; and even the expectation the 
player has about the effect the supplement will have on his training 
routine. Importantly, precisely because the effect of using a 
nutritional supplement will vary from individual to individual 
depending on such considerations, players, in deciding whether to take 
a nutritional supplement, should not depend upon another person's 
experience with the substance.
    Common nutritional supplements available at health food stores, on 
the internet, at supermarkets or pharmacies are those containing 
ephedrine, caffeine, creatine, and various vitamins and minerals. The 
manufacturers' claims for many of these products often have little 
relationship to reality. Simple products available at relatively low 
cost are often quite expensive when marketed under different names and 
called a ``dietary'' or ``nutritional supplement.'' It may be useful to 
ask a physician or trainer knowledgeable in these areas to comment on 
the various products.

Creatine
    Athletes in a variety of competitive sports have used synthetic 
creatine supplements. The manufacturers of various creatine products 
have made extravagant claims for their products related to increase in 
energy, muscle mass and endurance. It is important to understand that 
the bases for many of those claims are marketing and advertising, and 
not the result of controlled scientific studies which can be 
substantiated. In the scientific literature, there are many conflicting 
reports concerning its effectiveness.
    Creatine comes from three sources: the body is able to synthesize 
it; it is a natural substance found in food; and it can also be 
prepared synthetically. It is composed of three amino acids, glycine, 
arginine and methionine and is found in most protein rich foods, 
especially fish and meats. It is stored in muscle as creatine 
phosphate, a precursor of adenosine triphosphate, which is the 
immediate source of energy for muscle contraction. Most people consume 
approximately 1 to 2 grams of creatine in their daily diet, and produce 
similar amounts in their bodies, thus maintaining normal energy 
metabolism.
    Creatine may be used in two ways: to enhance the burst of energy 
needed for short, intense activity, and as a training supplement. 
Creatine alone does not appear to increase muscle mass. By allowing 
people to train more intensely, however, it could allow for faster and 
more pronounced muscle growth and strength. On the other hand, there 
may be dangers associated with rapid muscle growth, which would put 
athletes at higher risk of injury. This issue requires further study.
    Studies have shown that ingestion of large doses of synthetic 
creatine increases the level of creatine phosphate in the muscles which 
allows the sustaining of powerful muscular contractions and delaying 
fatigue. There appears to be an increase of short term energy for 
explosive muscle movements. This can be an asset in a workout regimen 
and may improve performance in short-term high intensity exercises such 
as sprints or laps. Other studies have shown, however, that sustained 
athletic performance and maximum oxygen uptake are not enhanced by 
creatine supplements. The medical literature also suggests that 
creatine does not enhance hand-eye coordination.
    Creatine manufacturers recommend starting with a total daily 
loading dose of 10 to 20 grams a day for 5 days, followed by a total 
daily maintenance of 2-5 grams per day. Increasing the dosage will not 
increase the positive effects. As with other substances, there is a 
direct correlation between excessive dosage and the risk of side 
effects.
    Although manufacturers of creatine state that it is safe to use; 
there are no carefully controlled studies on either effectiveness or 
side effects. Overuse of the drug may put excessive strain on the liver 
and kidneys. It may also cause acute and severe diarrhea. It is 
essential that adequate amounts of fluids be taken with creatine, since 
creatine is excreted by the kidneys. Inadequate fluid can lead to 
dehydration and muscle cramping.
    There is very little information available about the manufacture 
and purity standards of creatine, nor have the effects of its 
interaction with other supplements or medications been adequately 
studied. Since use of creatine is a recent phenomenon, long-term 
studies are obviously unavailable. Athletes with kidney disease or 
other health problems should not take creatine without physician 
supervision.

Carnitine
    Carnitine is a combination of two essential amino acids, lysine and 
methionine. It is a normal part of the body's metabolism and is used in 
the oxidation of amino acids. It also decreases the levels of lactic 
acid in muscles during exercise. In athletes, normal carnitine levels 
drop during intense exercise. Supplements containing carnitine are 
intended to replace the natural carnitine that is lost. Care must be 
taken, however, in the type of carnitine used. There are two forms, the 
dextro and the levo (``d'' and ``l''). Most nutritional supplements are 
a combination of the two and are labeled ``dl-carnitine'' or ``racemic 
carnitine''. Only the l-form is active and effective. The body cannot 
use the d-form, and its presence may actually cause a deficiency in 
effective carnitine levels

Ephedrine
    Ephedrine is a stimulant that is available without a prescription 
in a variety of nutritional supplements that purport to improve 
performance and/or decrease appetite. It is extracted from a Chinese 
herb variously called Ma Huang or Ephedra. In this form it has also 
been known as herbal ecstasy. Performance increases may occur with 
these drugs in the short-term, particularly when performance has been 
compromised by fatigue or lack of sleep. Increased doses generally do 
not lead to enhanced performance. There have been a number of severe 
side effects reported related to the drug, including high blood 
pressure, rapid heart rate, seizures, strokes, heart attacks and death. 
Ephedrine is also associated with psychological side effects such as 
increased irritability, anxiety, tremors, paranoia and, in rare 
instances, a complete break with reality. The psychological effects of 
the drug often severely impair performance. These drugs can be 
associated with severe dependency or addiction, such that the 
acquisition and use of the chemical becomes an overriding concern of 
living. Commercial preparations containing ephedrine include ``Ripped 
Fuel,'' ``Ultimate Orange'' and ``Metabolife,'' which also contain 
large amounts of caffeine.

St. John's Wort
    Although not advertised as an antidepressant, in order to retain 
its status as a nutritional supplement, St. John's Wort is an herbal 
preparation believed to be effective in mild depression, anxiety or 
insomnia. It is generally taken in doses of 300 mg, three times a day. 
The side effects are relatively mild, but include photosensitivity, a 
heightened skin and eye sensitivity to the sun which may be of 
importance to baseball players. It also causes gastrointestinal 
problems in some people.

Other Substances Claimed to Improve Performance
Human Growth Hormone (HGH)
    HGH is a hormone produced by the pituitary gland that is 
responsible for normal growth and development. It is used as a 
medication to treat children who are deficient in the hormone as well 
as those whose height is significantly below normal. Rumor and 
anecdotal information have created the idea that the drug is potent and 
associated with few side effects as an anabolic agent. Athletes have 
used it for its anabolic properties and it is much sought after and 
extremely expensive. It may increase fat-free mass and total body 
water, but it does not appear to increase muscle size, strength or 
performance. It originally was extracted from the pituitary gland of 
cadavers, and was associated with a number of deaths probably related 
to an infectious agent similar to that which causes ``Mad Cow 
Disease.'' Currently the hormone is synthesized in laboratories. There 
is also a large amount of counterfeit HGH, for example vials labeled 
Lilly Humatrope that actually contain other materials, such as human 
chorionic gonadotropin (see below).

Human Chorionic Gonadotropin (HCG)
    HCG is a naturally occurring hormone produced by the placentas in 
pregnant women. It is the basis for most pregnancy tests and is used in 
the treatment of infertility. In men, HCG stimulates production of 
testosterone in the testes. Athletes often use HCG during or after high 
doses of AASs to reduce side effects such as testicular atrophy or to 
avoid the crash after cessation of the AAS use. HCG can also cause side 
effects similar to the AASs, such as male breast growth, acne, mood 
swings and high blood pressure. In young athletes, HCG, like the AASs, 
can cause stunting of growth.

Erythropoietin (EPO)
    EPO is a naturally occurring molecule that regulates red blood cell 
production. It has been synthesized to be used medically in order to 
treat a number of anemias. It could enhance performance and endurance 
in certain sports, but little confirming data is available. It is the 
drug that has been implicated in the bicycle racing doping scandals 
because of its capacity to increase the oxygen-carrying capacity of the 
blood and the delivery of more oxygen to muscle. It has the potential 
for serious and even fatal side effects, such as stroke and heart 
attack.

Conclusion
    This report was developed to give you a greater understanding of 
the nature, benefits, if any, and risks associated with the use of 
products claimed to improve your capacity to train or perform as a 
professional baseball player. No pamphlet, of course, can provide you 
with all the information you need to know, nor with important 
developments that may take place after its publication. There is, 
therefore, as mentioned at the outset, simply no substitute for 
professional consultation in conjunction with your training regimen.
    Professional baseball players are subject to intense pressure to 
perform. Because of this pressure, it is not surprising that some will 
look for an edge where they hear one may be found, and the claims of 
steroid and supplement manufacturers can be loud indeed. But, given the 
increasing evidence of the potential for severe, even career ending, 
injuries, the many side effects, and the unpredictability of the 
results that have come to be associated with such substances, athletes 
must be extremely careful with what substances they use.
    If you have concerns or questions on this subject, we encourage you 
to talk with a qualified professional. It may be a private consultant, 
your team doctor, your trainer, a representative of your Employee 
Assistance Program, or any other qualified professional in whom you 
have confidence. Such contacts should be private and confidential. 
Please feel free, also, to consult at any time with Joel Solomon, M.D., 
the Medical Advisor to the Major League Baseball Players' Association, 
at (212) 595-9119, or Robert B. Millman, M.D., the Medical Advisor to 
the Office of the Commissioner, at (212) 746-1248, and to seek from 
them any further information you desire regarding this important 
subject.
                                 ______
                                 
(Exhibit C)    Major League Baseball's Minor League Drug Prevention and 
                           Treatment Program
    The Major League Baseball Minor League Drug Prevention and 
Treatment Program (the ``Program'') has been established to prevent and 
end the use of Prohibited Substances (defined in Section 2 below) by 
non 40-man roster Minor League players. The Office of the Commissioner 
has concluded that the use of Prohibited Substances is potentially 
hazardous to a Player's health and may create an unfair competitive 
advantage on the playing field.

1. Health Policy Advisory Committee

A. Minor League Health Policy Advisory Committee Members
    The Minor League Health Policy Advisory Committee (``MLHPAC'') is 
responsible for administering and overseeing the Program. MLHPAC shall 
be composed of the Office of the Commissioner's medical representative 
(``Medical Representative'') and two other representatives (with at 
least one representative being a duly licensed attorney).

B. Appointment and Removal of MLHPAC Members
    The respective representatives shall be appointed and removed by 
the Office of the Commissioner's Executive Vice President of Labor 
Relations and Human Resources and such representatives shall not serve 
a minimum term.

C. Duties and Responsibilities of MLHPAC
    MLHPAC shall have the following duties and responsibilities:

        1. Establish advisory groups as it deems necessary to the 
        effective administration of the Program, provided that no such 
        advisory group may incur any extraordinary expenses without the 
        approval of the Office of the Commissioner;
        2. Prepare and undertake educational presentations supporting 
        the objectives of the Program;
        3. Administer the Program's testing requirements;
        4. Establish uniform guidelines or requirements for Clubs' 
        Employee Assistance Programs (``EAPs'') and monitor the 
        performance of all such EAPs;
        5. Conduct investigations;
        6. Determine a Player's placement on either the Clinical or 
        Administrative Track;
        7. Create, or participate in creating, individualized programs 
        for Players on the Clinical or Administrative Track 
        (``Treatment Programs'');
        8. Monitor and Supervise Players' Treatment Program progress.
        9. Establish, monitor, maintain and supervise the collection 
        procedures and testing protocols set forth in Addendum A 
        hereto;
        10. Review periodically the operation of the Program and make 
        recommendations to the Office of the Commissioner for 
        appropriate amendments; and
        11. Take any and all other reasonable actions necessary to 
        ensure the proper administration of the Program.

2. Drugs of Abuse and Steroids
    All non 40-man roster Minor League Players shall be prohibited from 
using, selling (or helping to sell) or distributing (or helping to 
distribute) any Drug of Abuse and/or Steroid (collectively referred to 
as ``Prohibited Substances'').

A. Drugs of Abuse
    Any and all drugs or substances included on Schedules I and II of 
the Code of Federal Regulations' Schedule of Controlled Substances, as 
amended from time to time, shall be considered a Drug of Abuse covered 
by the Program. The following is a non-exhaustive list of Drugs of 
Abuse covered by the Program:

        1. Amphetamine and its analogs
        2. Cocaine
        3. LSD
        4. Marijuana
        5. Opiates (Heroin, Codeine, Morphine)
        6. Phencyclidine (``PCP'')
        7. MDMA (``Ecstasy'' or ``X'')
        8. GHB
        9. Alcohol \1\
---------------------------------------------------------------------------
    \1\ A Player will only be required to enter the Administrative 
Track (or the Clinical Track) for alcohol-related reasons if his 
consumption of alcohol and/or habitual use of alcohol is or may be 
problem for the Player.

B. Steroids
    Any and all anabolic androgenic steroids included on Schedule III 
of the Code of Federal Regulations' Schedules of Controlled Substances 
(Schedule III) shall be considered a Steroid covered by the Program. 
Anabolic Androgenic steroids that are not included on Schedule III but 
that may be illegally obtained are also prohibited. The following is a 
non-exhaustive list of Steroids that are prohibited:

        1. Bolasterone
        2. Bolderone
        3. Clenbuterol
        4. Clostebol
        5. Dehydrochlormethyltestosterone
        6. Dromostanolone
        7. Ethylestrenol
        8. Furarebol
        9. Mesterolone
        10. Methandienone
        11. Methandriol
        12. Methenolone
        13. Mibolerone
        14. Nandrolone
        15. Oxymacaterone
        16. Stanazolol
        17. Trenbolone

    Androstenedione shall also be deemed a Steroid covered by the 
Program despite the fact that it is not included on Schedule III.

C. Adding Prohibited Substances to the Program
    MLHPAC shall have the right to add a Prohibited Substance to this 
Section 2.

3. Random Testing

A. Drugs of Abuse
        1. In addition to the testing set forth in Section 4 below, all 
        non 40-man roster Minor League players will be subject to up to 
        three random tests per year for the use of any Drug of Abuse.
        2. If a Player tests positive for any Drug of Abuse, he shall 
        immediately enter the Administrative Track and shall be subject 
        to the discipline set forth in Section 9.

B. Steroids
        1. In addition to the testing set forth in Section 4 below, all 
        non 40-man roster Minor League players will be subject to up to 
        three random tests per year for the use of Steroids.
        2. If a Player tests positive for any Steroid, he shall 
        immediately enter the Administrative Track and shall be subject 
        to the discipline set forth in Section 9.

C. Collection Procedures
    All Program testing shall be conducted in compliance with the 
Collection Procedures set forth in Addendum A hereto.

D. Positive Test Results
    Any test conducted under the Program will be considered 
``positive'' for either a Drug of Abuse or Steroid under the following 
circumstances:

        1. If any substance identified in the test results meets the 
        levels set forth in the Testing Protocols section of Addendum A 
        hereto.
        2. A Player fails or refuses to take a test pursuant to Section 
        3 or 4, or refuses to cooperate with the testing process.
        3. A Player attempts to substitute, dilute, mask or adulterate 
        a specimen sample or in any other manner alter a test.
        4. The determination of whether a test is ``positive'' under 
        Section 3.D.2 
        and 3.D.3 shall be made by MLHPAC.

E. Notification
    MLHPAC shall immediately notify the Player and the Club's 
representative and EAP of a positive result from a test conducted 
pursuant to Section 3 or 4.

4. Reasonable Cause Testing
    In the event that any MLHPAC member has information that gives him/
her reasonable cause to believe that a Player has, in the previous 
year, engaged in the use, possession or distribution of a Prohibited 
Substance, such member shall immediately request a meeting (or 
conference call) to present such information to the other MLHPAC 
members. Upon hearing the information presented, MLHPAC may either 
immediately determine if there is reasonable cause to believe that the 
Player has engaged in the use, possession, or distribution of a 
Prohibited Substance or MLHPAC may conduct a prompt investigation to 
ascertain additional facts (``Investigation''). If MLHPAC determines 
that such reasonable cause exists, the Player will be subject to 
immediate testing in accordance with the procedures and protocols set 
forth in Addendum A hereto.
    If the Player tests positive for a Prohibited Substance, he will be 
placed on the Administrative Track and will be subject to discipline 
under Section 9.

5. Clinical and Administrative Tracks

A. General
    Any Player referred to MLHPAC shall be placed on either the 
Clinical Track or the Administrative Track.

B. Clinical Track
        1. A Player will be placed on the Clinical Track only through 
        his voluntarily coming forward to either MLHPAC or his Club 
        (``Voluntary Self-Referral'') and stating that he would like 
        assistance in attempting to stop using any Prohibited 
        Substance. Voluntary Self-Referral shall also include any 
        situation where the Club suggests to the Player that he seek 
        assistance from either MLHPAC or the Club's EAP, and the Player 
        voluntarily agrees to such assistance.
        2. While a Player remains on the Clinical Track, any and all 
        information relating to the Player's involvement in the 
        Program, including but not limited to Prohibited Substance 
        testing and Treatment Program progress, shall be disclosed only 
        to MLHPAC and the Club's EAP who shall keep such information 
        confidential. MLHPAC and/or EAPs will be under no obligation 
        from either the Office of the Commissioner or any Club to 
        disclose any information regarding a Player on the Clinical 
        Track.
        3. A Player shall not be subject to discipline while he is on 
        the Clinical Track, except as set forth in Section 5.B.4.
        4. A Player will be removed from the Clinical Track and placed 
        on the Administrative Track under the following circumstances: 
        (i) Player does not comply with his Treatment Program; or (ii) 
        any of the conditions of Administrative Track placement occurs. 
        A Player will not be subject to discipline, other than being 
        moved to the Administrative Track, for failing to comply with 
        his Treatment Program while on the Clinical Track (including 
        testing positive for a Prohibited Substance). A Player will be 
        subject to immediate discipline if, while on the Clinical 
        Track, the Player is convicted or pleads guilty (including a 
        plea of nolo contendere or a similar plea) to the sale or use 
        (including a criminal charge of conspiracy or attempt to 
        possess, use or distribute) of any Prohibited Substance.

C. Administrative Track
        1. A Player will be placed on the Administrative Track if any 
        one of the following occur: (i) MLHPAC determines that Player 
        should enter Clinical Track but Player refuses Voluntary Self-
        Referral; (ii) Club and/or MLHPAC believe that Player poses a 
        threat to the safety of himself or others and Player refuses 
        Voluntary Self-Referral; (iii) Player is convicted or pleads 
        guilty (including a plea of nolo contendere or a similar plea) 
        to the use (including a criminal charge of conspiracy or 
        attempt to possess, use or distribute) of any Prohibited 
        Substance; (iv) Player is involved in the sale or distribution 
        of a Prohibited Substance; (v) Player tests positive under the 
        Program for any Prohibited Substance; or (vi) Player does not 
        comply with his Clinical Track Treatment Program.
        2. While a Player remains on the Administrative Track, 
        information relating to the Player's involvement in the 
        Program, including but not limited to Prohibited Substance 
        testing and Treatment Program progress, shall be disclosed to 
        MLHPAC, the Player's EAP and a designated representative from 
        the Player's Club. Any information disclosed shall remain 
        completely confidential. Notwithstanding the foregoing, if a 
        Player is suspended pursuant to Section 9 below, the 
        transaction shall be entered in the Baseball Information System 
        as a suspension for a specified number of days for a violation 
        of this Program. Moreover, the only public comment from the 
        Club or the Office of the Commissioner shall be the fact that 
        the Player was suspended for a specified number of days for a 
        violation of the Program. MLHPAC is permitted, without the 
        Player's consent, to disclose the Player's Treatment Program 
        progress to the General Manager of the Player's Club, who shall 
        keep such information confidential, except as set forth in 
        section 8 below.
        3. A Player on the Administrative Track is subject to 
        discipline under Section 9.

6. Player Evaluation

A. Initial Evaluation
        1. A Player who is referred to MLHPAC (either through a 
        positive test result or through Voluntary Self-Referral) will 
        receive an evaluation from MLHPAC's Medical Representative or 
        the Club's EAP (the ``Initial Evaluation''). The purpose of the 
        Initial Evaluation is to ascertain the type of Treatment 
        Program that, in the opinion of the Medical Representative and 
        the EAP, would be most effective for the Player involved. The 
        Initial Evaluation shall include at least one meeting with the 
        Player and either the Medical Representative or the EAP. After 
        the first meeting, the Medical Representative and/or the EAP 
        may determine that additional meetings and/or a medical 
        examination, including a toxicology examination, is necessary 
        to complete the Initial Evaluation.
        2. A Player shall be required to sign a consent form to receive 
        medical treatment and for the release of his medical records. A 
        Player who is on the Administrative Track shall also be 
        required to sign a release so that his club may provide any 
        Club who is interested in acquiring such Player's contract with 
        information regarding the Player's Treatment Program progress.

B. Treatment Program
    After concluding the Initial Evaluation and consulting with MLHPAC, 
the Medical Representative and the EAP shall prescribe a Treatment 
Program for the Player. In devising the Treatment Program, the Medical 
Representative and the EAP may consult with independent experts but, in 
doing so, may not divulge the Player's name. The Treatment Program may 
include any or all of the following: counseling, in-patient treatment, 
outpatient treatment and follow-up testing. The Medical Representative 
or the EAP must inform the Player of the initial duration of the 
Treatment Program. During the course of the Player's Treatment Program, 
the Medical Representative and the EAP may change the duration (either 
longer or shorter) and the scope of the Treatment Program, depending on 
the Player's progress. The EAP shall forward monthly Treatment Program 
Progress Reports (attached hereto as Addendum B) to MLHPAC for any 
Player on either the Clinical or Administrative Track.

7. Confidentiality of Evaluations and Treatment Programs
    The confidentiality of the Player's participation in the Program is 
essential to the Program's success. The Office of the Commissioner, 
MLHPAC, Club personnel, and all of their members, affiliates, agents 
consultants and employees, are prohibited from publicly disclosing 
information about the Player's Initial Evaluation, diagnosis, Treatment 
Program (including whether a Player is on either the Clinical or 
Administrative Track), prognosis, test results or compliance.

8. Disclosure of Player Information

A. Disclosure of Information
        1. A Club whose Player is on the Clinical Track is prohibited 
        from disclosing any information regarding a Player's 
        participation in the Program to either the public, the media or 
        other Clubs. Notwithstanding this prohibition, a Club is 
        permitted to discuss a Player's Treatment Program progress with 
        another Club that is interested in acquiring such Player's 
        contract if the Club receives the Player's prior written 
        consent.
        2. A Club whose Player is on the Administrative Track must 
        disclose information regarding a Player's participation in the 
        Program to a Club that is interested in acquiring such Player's 
        contract in an assignment.

B. Method of Providing Information
    Any information provided pursuant to this Section 8 must be relayed 
to the management of the acquiring Club via a conference call with at 
least one MLHPAC Representative or the EAP overseeing the Player's 
Treatment Program on the conference call. The acquiring Club's 
management shall keep any information that it obtains confidential.

9. Discipline
    Other than as provided in Section 9.D below, only players on the 
Administrative Track shall be subject to discipline.

A. Player Fails to Comply with Treatment Program
        1. If MLHPAC determines that a Player failed to comply with his 
        Treatment Program while Player is on the Administrative Track, 
        Player shall be subject to the following discipline:

          (a) First offense: at least a 3-game, but no more than a 15-
        game, suspension and up to a $1,000 fine;
          (b) Second offense while on same Treatment Program: at least 
        a 15-game, but no more than a 30-game, suspension and up to 
        $5,000 fine;
          (c) Third offense while on same Treatment Program: at least a 
        one-year suspension and up to $10,000 fine;
          (d) Fourth offense while on same Treatment Program: permanent 
        suspension from Baseball.

        2. All suspensions shall be without pay.

B. Player Tests Positive for Prohibited Substance
        1. A Player who tests positive for a Prohibited Substance shall 
        immediately enter the Administrative Track;
        2. A Player who tests positive for a Prohibited Substance for a 
        second time in his Minor League career shall receive at least a 
        3-game, but no more than a 15-game, suspension and up to a 
        $1,000 fine;
        3. A Player who tests positive for a Prohibited Substance for a 
        third time in his Minor League career shall receive at least a 
        15-game, but no more than a 30-game, suspension and up to a 
        $5,000 fine;
        4. A player who tests positive for a Prohibited Substance for a 
        fourth time in his Minor League career shall receive a one-year 
        suspension from Minor League Baseball and up to a $10,000 fine. 
        Player must establish that he has successfully completed a 
        Treatment Program before he is permitted reinstatement.
        5. A player who tests positive for a Prohibited Substance for a 
        fifth time in his Minor League Career shall be permanently 
        suspended from Minor League Baseball.
        6. All suspensions shall be without pay.

C. Removal from Clinical or Administrative Track
    MLPHAC shall have the discretion to remove Player from either the 
Administrative or Clinical Track if a Player does not test positive for 
a Prohibited Substance in a one-year period and/or if Player 
successfully completes his Treatment Program.

D. Conviction for the Use or Sale of Prohibited Substance
        1. Conviction for Use of Prohibited Substance
          A Player who is convicted or pleads guilty (including a plea 
        of nolo contendere or a similar plea) to the use of a 
        Prohibited Substance (including a criminal change of attempt to 
        possess or use) shall receive at least a 15- 30 game suspension 
        and up to $1,000 fine. A Player's second conviction for use of 
        a Prohibited Substance shall result in a 30-60 game suspension 
        and up to a $5,000 fine. A Player's third conviction for use of 
        a Prohibited Substance shall result in a one-year suspension 
        from Baseball and up to a $10,000 fine. A Player's fourth 
        conviction for use of a Prohibited Substance shall result in a 
        permanent suspension from Baseball.
        2. Conviction for the Sale or Distribution of a Prohibited 
        Substance
          A Player who is involved in the sale or distribution of a 
        Prohibited Substance shall receive at least a 60-90 game 
        suspension and up to a $10,000 fine. A Player who is involved 
        in the sale or distribution of a Prohibited Substance for a 
        second time during his Minor League career shall be permanently 
        suspended from Baseball.

10. Costs of the Program
    Any costs for the treatment and testing of Players on either the 
Clinical Track or the Administrative Track shall be covered by the Club 
holding title to the Player's contract. Any costs relating to MLHPAC 
shall be covered by the Office of the Commissioner.
Addendum A
Collection Procedures
    All Collectors must adhere to the following collection procedures:

        1. Collector must ask donor for photo identification. If the 
        donor does not have ID, Collector will indicate this on the 
        Group Collection Log and have a club management representative 
        (e.g., trainer, coach) positively identify player.
        2. Have donor sign in on the Group Collection Log.
        3. Enter donor's social security number in the Donor 
        Information box on the Chain of Custody.
        4. Ask donor to select a wrapped/sealed collection kit.

            The Collection Shall Be Directly Observed By A Male 
        Collector

        5. Have donor provide a urine specimen. After the donor voids, 
        the donor, not Collector, must carry the sample to the 
        processing table. Collector must not handle the specimen at all 
        until Collector pours it into the ``A'' and ``B'' bottles (see 
        Paragraph 9 below).
        6. Determine if there is sufficient urine for testing. A 
        minimum of 60ml of urine must be collected.
        7. If the donor is unable to void, Collector must call CDT 
        after 2 hours for further instructions. Under no circumstances 
        should the donor leave the facility without giving a specimen 
        unless instructed to do so by CDT.
        8. Temperature should be read within 4 minutes of collection. 
        Determine if urine temperature is within normal range. (90 to 
        100 F)
          A. If temperature is normal, check ``Yes'' Box.
          B. If temperature is NOT within normal range, check ``No'' 
        box. Record temperature in adjacent space and process the 
        sample as you would a normal specimen. NOTE: Problem Collection 
        Log must be completed.

            1. Inform the donor that he must give a second specimen.
            2. Prepare a second Chain-of-Custody form for the second 
        Sample.
            3. Inform the donor that both specimens will be submitted 
        to the laboratory for testing.

        9. Collector pours sample from disposable specimen cup into 
        specimen bottles: Collector must tell the donor the following:

            ``Reserve a Small Amount in the Cup''

          Collector shall split this specimen as follows: 45ml in ``A'' 
        bottle and 15ml in ``B'' bottle. Note: If less than 60ml is 
        collected discard the entire specimen in the donor's presence. 
        Begin again with another sealed kit in order to collect the 
        60ml. Note: Problem Collection Log must be completed.

            Collector must tell the donor the following:

            ``You must watch me as I pour the sample into the bottles 
        and seal them.''

        10. Place bottle caps on specimen bottles. Ensure that caps are 
        on tight to prevent leakage.
        11. Complete the bottle custody seals for the ``A'' and ``B'' 
        samples as follows:
          Ask the donor to verify that the specimen ID numbers on the 
        top right side of the chain-of-custody form match those on the 
        security seals.
        12. Peel the back off the bottle custody seals and place over 
        the bottle caps and down the sides of the bottles.
          Have donor initial and date the security seal.
        13. Check the specific gravity of the urine remaining in the 
        cup, and record the findings on the chain of custody.
      <bullet> Specific Gravity must be 1.010 or higher.
          If the specimen does not meet these standards, it will be 
        processed anyway and the donor shall be required to provide 
        additional specimens until these requirements are met. Only the 
        sample meeting these requirements will be sent for testing 
        along with the first sample. Collector shall make a notation on 
        Problem Collection Log.
        14. Read the Donor Certification statement aloud to the donor, 
        in the DONOR AFFIDAVIT section of the Chain-of-Custody form:

            ``I certify that the specimen(s) sealed with the above 
        specimen ID number was provided by me on this date and the 
        specimen(s) has not been altered.''

          After Collector has read this statement to the donor, player 
        must sign and date form.

        15. Collector shall read and sign the COLLECTOR AFFIDAVIT 
        (bottom of page). Collector shall print his name, date of 
        collection and time of collection.
        16. Collector shall ask the donor if he has taken any 
        medications within the last 30 days and, if so, will enter such 
        information in the ``MEDICATIONS'' section. The donor will be 
        informed that know that this information is not required.
        17. Place specimen bottles in the front pocket and copy 2 of 
        the Chain-of-Custody form inside the rear pocket of the 
        specimen bag.
        18. Initial and date the bag custody seal.
        19. Place the seal over the sealed ``flap'' of the bag.
        20. Give copy to the donor.
        21. Store specimen in locked or secure storage until pickup. In 
        the event of a weekend collection and the sample cannot be sent 
        until Monday, the specimen should be stored in a refrigerated, 
        locked area.
Testing Protocols

                             Drugs of Abuse

                       Initial Test Level (ng/
        Drugs                    mL)             Confirmation Test Level

Ethanol (Alcohol)                       0.02%                     0.02%
Amphetamines                             1000                       500
Cocaine Metabolites                       300                       150
Opiates/Metabolites                      2000                      2000
Phencyclidine (PCP)                        25                        25
Cannabinoids                               50                        15
Nandrolone                                  2                         2


Steroids
    A test will be considered positive if any Steroid as defined in 
Section 2.B of the Program is present.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Dorgan. Mr. Manfred, thank you very much.
    Next we will hear from Jerry Colangelo, who is the chairman 
of AZBP Limited Partnership, the ownership group for the 
Arizona Diamondbacks. Mr. Colangelo, welcome, and thank you for 
being here.

STATEMENT OF JERRY COLANGELO, MANAGING GENERAL PARTNER, ARIZONA 
                          DIAMONDBACKS

    Mr. Colangelo. Thank you, Senator.
    Mr. Chairman and Members of the Committee, thank you for 
this opportunity to appear before you today to discuss an issue 
of great concern to me, as an owner of a major league club and 
as a fan of baseball: the increasing prevalence of steroids in 
Major League Baseball.
    I am fortunate enough to have been involved in baseball 
since 1998, when the Arizona Diamondbacks were admitted to the 
National League as an expansion team. Last season, I 
experienced the ultimate thrill in all of professional sports, 
watching my team win perhaps the most exciting World Series in 
baseball history. That win was a tremendous boost for the State 
of Arizona and generated terrific publicity for our sport.
    Unfortunately, in recent weeks, baseball has been forced to 
endure a spate of negative publicity as a result of revelations 
of steroid use by two former players. These comments suggest 
that steroid use is prevalent in baseball and on the increase. 
I believe this trend must be stopped and reversed for two 
principal reasons--one, to protect the players safety and 
health, and, two, to protect the integrity of the game.
    First, it is my understanding that players who use steroids 
risk serious health consequences, such as increased likelihood 
of injury, high blood pressure, high cholesterol, hypertension, 
depression, and even infertility. Major League Baseball should 
do everything within its power to discourage players from 
taking these risks.
    Major league players make it to this elite playing field 
because of their unwavering commitment and desire to win. As an 
all-state high school and an All-Big-Ten basketball player for 
the University of Illinois, I understand and appreciate this 
desire to compete and succeed. Indeed, it is this desire to 
succeed that produces greatness.
    Unfortunately, some players' desire is so strong that they 
are willing to take steroids in an effort to get an edge over 
other players. They do this in spite of the negative 
consequences that may result from using steroids. This conduct, 
at the major league level, has the inevitable domino effect of 
forcing other baseball players, in both the major and minor 
leagues, to engage in the same conduct. In fact, many players 
believe that without this same edge, they may be placed at a 
competitive disadvantage as compared to other players.
    My purpose here is not to blame the players for this 
conduct. Instead, my purpose is to shed light on a problem that 
can be remedied and to encourage all those involved to work 
together to do so.
    As Rob Manfred discussed, Major League Baseball has done 
everything possible, everything that is possible to do without 
the Players Association's consent, to prevent and end steroid 
use. We believe, however, that more needs to be done.
    Based on my experience as an owner of the Phoenix Suns, a 
team in the National Basketball Association, the implementation 
of a comprehensive, mandatory steroid testing program would go 
far towards addressing this serious problem. Unlike Major 
League Baseball, the NBA has a mandatory steroid testing 
program in place for its first year and veteran players, which 
was agreed to by the National Basketball Players Association. 
This testing program is set forth in the parties' 1999 
collective bargaining agreement.
    Pursuant to the NBA's testing program, each first-year 
player is subject to up to 4 unannounced steroid tests per 
year, and each veteran player is subject to 1 unannounced 
steroid test per year. It is my opinion that the NBA's testing 
program has been instrumental in discouraging players from 
using these dangerous and illegal substances.
    We are hopeful that baseball will have a mandatory steroid 
testing program in the near future. Such a program would be a 
necessary and fundamental step in the direction of ridding 
steroid use in Major League Baseball.
    And, in summary, when I see the cartoons, the editorials, 
the columns that attack the credibility of our players, we have 
a serious problem. I've very concerned about the health, as I 
said earlier, both short term and long term. And this is 
everyone's issue. It's not an owners' issue, it's not a Players 
Association issue. It's an issue that we must deal with 
collectively. When you look at the economic impact, in terms of 
the loss of millions of dollars, that's serious.
    And enough can't be said about the role-model influence 
that players have. Our fans are being affected. They're 
questioning the athletes themselves.
    And so I would urge that the Players Association recognize 
that this is not an ``if'' or a ``maybe.'' This is a must--
something that must be done, for all the appropriate reasons.
    Thank you.
    [The prepared statement of Mr. Colangelo follows:]

   Prepared Statement of Jerry Colangelo, Managing General Partner, 
                          Arizona Diamondbacks

    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to appear before you today to discuss an issue of grave 
concern to me as an owner of a Major League Club and as a fan of 
Baseball--the increasing prevalence of steroids in Major League 
Baseball.
    I am fortunate enough to have been involved in Baseball since 1998 
when the Arizona Diamondbacks were admitted to the National League as 
an expansion team. Last season, I experienced the ultimate thrill in 
all of professional sports--watching my team win perhaps the most 
exciting World Series in Baseball history. That win was a tremendous 
boost for the State of Arizona and generated terrific publicity for our 
sport.
    Unfortunately, in recent weeks, Baseball has been forced to endure 
a spate of negative publicity as a result of revelations of steroid use 
by two former players. These comments suggest that steroid use is 
prevalent in Baseball and on the increase. I believe this trend must be 
stopped and reversed for two principal reasons: one, to protect the 
players' safety and health; and two, to protect the integrity of the 
game.
    First, it is my understanding that players who use steroids risk 
serious health consequences, such as increased likelihood of injury, 
high blood pressure, high cholesterol, hypertension, depression and 
even infertility. Major League Baseball should do everything within its 
power to discourage players from taking these risks.
    Major League players make it to this elite playing field because of 
their unwavering commitment and desire to win. As an All-State high 
school and an All-Big Ten basketball player for the University of 
Illinois, I understand and appreciate this desire to compete and 
succeed. Indeed, it is this desire to succeed that produces greatness.
    Unfortunately, some players' desire is so strong that they are 
willing to take steroids in an effort to get an ``edge'' over other 
players. They do this in spite of the negative consequences that may 
result from using steroids. This conduct at the Major League level has 
the inevitable domino effect of forcing other baseball players in both 
the Major and Minor Leagues to engage in the same conduct. In fact, 
many players believe that, without this same ``edge,'' they may be 
placed at a competitive disadvantage as compared to other players.
    My purpose here is not to blame the players for this conduct. 
Instead, my purpose is to shed light on a problem that can be remedied 
and to encourage all those involved to work together to do so. As Rob 
Manfred discussed, Major League Baseball has done everything possible--
everything that is possible to do without the Players Association's 
consent--to prevent and end steroid use. We believe, however, that more 
needs to be done.
    Based on my experience as an owner of the Phoenix Suns, a team in 
the National Basketball Association, the implementation of a 
comprehensive, mandatory steroid testing program would go far towards 
addressing this serious problem. Unlike Major League Baseball, the NBA 
has a mandatory steroid testing program in place for its first year and 
veteran players, which was agreed to by the National Basketball Players 
Association. This testing program is set forth in the parties' 1999 
collective bargaining agreement.
    Pursuant to the NBA's testing program, each first year player is 
subject to up to four unannounced steroid tests per year and each 
veteran player is subject to one unannounced steroid test per year. It 
is my opinion that the NBA's testing program has been instrumental in 
discouraging players from using these dangerous and illegal substances.
    We are hopeful that Baseball will have a mandatory steroid testing 
program in the near future. Such a program would be a necessary and 
fundamental step in the direction of ridding steroid use in Major 
League Baseball.

    Senator Dorgan. Mr. Colangelo, thank you very much.
    Next we will hear from Donald Fehr, executive director and 
general counsel for the Major League Baseball Players 
Association. Mr. Fehr, welcome. You may proceed.

 STATEMENT OF DONALD M. FEHR, EXECUTIVE DIRECTOR, MAJOR LEAGUE 
                  BASEBALL PLAYERS ASSOCIATION

    Mr. Fehr. Thank you, Mr. Chairman.
    My name is Donald M. Fehr, and I'm privileged to serve as 
the executive director of the Major League Baseball Players 
Association, a position I've held for more than 15 years now. 
The MLBPA is the exclusive collective bargaining representative 
of all major league players, and I appear here today in 
response to the committee's invitation to testify.
    As the Chairman indicated, there were a number of current 
major league players that were also invited to testify. Due to 
the pressures of the schedule--we don't have off days in 
baseball that amount to anything--it was impossible for them to 
appear, and I trust that the Committee will understand.
    First, we appreciate the Committee's interest in and 
concern about the recent reports of the use of illegal steroids 
in Major League Baseball which has led to this hearing and 
which has prompted the comments made by the three Senators that 
we heard from as the hearing began.
    Let me be clear, on behalf of myself and my entire 
membership. The Major League Baseball Players Association 
neither condones nor supports the use by players or by anyone 
else of any unlawful substance, be it steroids or otherwise, 
nor do we support or condone the unlawful use of any legal 
substance. I cannot put it more plainly. Both the use of any 
illegal substance and the illegal use of any lawful substance 
are wrong.
    As the Members of the Committee know, and as was reflected 
in the opening statements this morning, and as Mr. Manfred and 
Mr. Colangelo have mentioned, we are currently engaged in the 
process of negotiating new collective bargaining agreements 
with the major league clubs covering terms and conditions of 
employment for major league players. It's no secret that 
collective bargaining in baseball is sometimes a difficult 
process. That certainly has been the history. But it is also 
clear, as has been mentioned, that the appropriate venue in 
which these issues will be addressed is within that process. 
And it is certainly my hope and that of my membership that, 
before too much longer, we will be able to reach a just, fair, 
and effective agreement with the owners on all of the issues 
which divide us, certainly including the ones that brought us 
to this hearing today.
    As it happens, I was scheduled to begin to make a trip to 
see all of my members for the purpose of discussing collective 
bargaining. While all the meetings aren't scheduled yet, the 
first one, as it happens, takes place tomorrow morning in 
Montreal. And I can assure the Members of the Committee that 
these issues will receive serious and thoughtful discussion in 
those meetings. And I think it goes without saying that the 
recent publicity and the interest of this Committee will help 
to spur that process.
    Additionally, however, as I think is also clear, we are not 
engaged in the process of collective bargaining here, and I 
will not be doing that.
    I also appreciate very much the Chairman's comments that we 
will not be discussing individuals here. That's difficult to 
do, and I certainly believe that's the appropriate course.
    Let me further correct what may be a misimpression. If one 
were simply to pay attention to cursory sound bites or 
sensational magazine covers or some of the other press coverage 
that we've seen, one might believe that Major League Baseball 
and the Players Association have no substance use or abuse 
program, have not cooperated together, have not thought about 
these issues, have not considered what to do, or, if we have 
such a program, if we have thought about these things, if we 
have considered what to do, that it bears no reference to 
steroids. As Mr. Manfred has indicated, that clearly is not the 
case.
    For a long time, the Players Association and the clubs have 
worked together with medical professionals that we jointly 
appoint to develop programs which are directed and administered 
by those physicians. Those programs have a testing component, 
based upon reasonable cause to believe that a player has 
engaged in misconduct or other activity affecting his ability 
to play.
    With respect to steroids, the views of our physicians, 
which are entirely endorsed by the Players Association, as well 
as the clubs, are, in fact, reflected in the brochure or the 
booklet that is referenced in my testimony and that Mr. Manfred 
has referenced, entitled ``Steroids and Nutritional 
Supplements,'' which, as Rob has indicated, is the principal 
educational document that we utilize and has been distributed 
to all players. The Committee has copies.
    And as that document makes clear, all AAS's, as the 
document refers to it--anabolic androgenic steroids--are 
classified under Federal law as Schedule III drugs requiring a 
doctor's prescription to be lawfully used. There are serious 
health risks. There are serious penalties for unlawful use or 
distribution, et cetera.
    But, as the Chairman and the Members of the Committee 
certainly understand, this is an issue not so easily disposed 
of as perhaps the sound bites and the rhetoric might otherwise 
suggest. There are some significant and complex public policy 
issues involved. Consider just one example. Substances that you 
might say have ``steroidal properties,'' like DHEA, or that we 
believe to be, in fact, steroids, androstenedione, are fully 
legal under Federal law, are sold over the counter in health 
food and other stores all across the country and, so far as I 
know, are without even the simple protections of a warning 
label or an age restriction on purchase, even though the 
medical evidence is pretty compelling of the dangers of some of 
those substances, especially to women and to youth.
    As was suggested in that booklet, which I remind everyone 
was jointly authored, it may well be time for the Federal 
Government to revisit whether such products should be covered 
by Schedule III or otherwise the subject of appropriate 
legislation or regulation, and we would welcome such 
examination by the Congress, by the Food and Drug 
Administration, or by any other appropriate body.
    Another important issue which is implicated in this 
discussion we summarize in a single word, and that's 
``privacy.'' We believe that any program can be successful, on 
steroids or anything else, only if stringent safeguards are in 
place to protect the privacy of the employees, particularly so 
in an industry like baseball in which the lives of the 
players--and the rest of us, for that matter--are so much in 
the public eye.
    We also recognize the ongoing public debate, which has been 
referred to in the opening statements this morning, about the 
merits of cause-based versus random testing. The Players 
Association has always believed that one should not, absent 
compelling safety considerations, invade the privacy of an 
individual without a substantial reason--that is to say without 
cause--related to conduct by that individual and not merely to 
his status as an employed baseball player.
    We understand, of course, that the principles underlying 
the Fourth Amendment restrictions on unreasonable searches and 
seizures are not directly applicable to the private employment 
setting. Nevertheless, such principles should not, we submit, 
be lightly put aside.
    Let me address a question that is no doubt on the minds of 
the Chairman, Senator McCain, and the other Members of the 
Committee, who for so long have been supporters of amateur and 
professional sports in this country. It has been referred to in 
the opening statements this morning. What message do we send 
the children, the kids who are playing ball, maybe dreaming of 
a career in the big leagues? I think it's the same message that 
we send the players. Play this great game--and we all think 
it's the greatest one there is--to the best of your ability, 
and do so under the rules. Do not jeopardize your health. Do 
not use illegal drugs. And don't use any drug or any substance, 
even if entirely lawful, except on the advice and the 
recommendation of a competent and knowledgeable physician for a 
good and substantial reason.
    Finally, no one cares more about the game, cares more about 
the health of the players, than the players themselves. In a 
very real sense, they are the game. They understand the issues 
that are involved, and we will find a way, consistent with the 
principles we believe in, I am confident, over the course of 
this collective bargaining negotiation, to reach a satisfactory 
conclusion. I can't tell you today what that will be. I can 
tell you we're committed to the process.
    Thank you very much.
    [The prepared statement of Mr. Fehr follows:]

Prepared Statement of Donald M. Fehr, Executive Director, Major League 
                      Baseball Players Association

    Mr. Chairman and Members of the Committee:
    My name is Donald M. Fehr, and I am privileged to serve as the 
Executive Director of the Major League Baseball Players Association. 
The MLBPA is the exclusive collective bargaining representative of all 
major league baseball players. I am pleased to appear today in response 
to the Committee's invitation to testify.
    I appreciate the Committee's interest in and concern about recent 
reports of the use of illegal steroids in major league baseball which 
has led to this hearing. Let me be clear. The Major League Baseball 
Players Association neither condones nor supports the use by players, 
or by anyone else, of any unlawful substance--steroids or otherwise. 
Nor do we support or condone the unlawful use of any legal substance. I 
cannot put it more plainly: both the use of any illegal substance and 
the illegal use of any lawful substance are wrong.
    As the Members of the Committee may know, the MLBPA and the Major 
League Clubs are currently engaged in the process of negotiating new 
collective bargaining agreements with respect to terms and conditions 
of employment of Major League players. The appropriate forum in which 
to consider these issues is the collective bargaining process, and I am 
hopeful that before too much longer we will be able to reach a just, 
fair and effective agreement with the owners on all the issues which 
divide us, certainly including the ones that we are discussing today. 
Over the next few weeks we will be meeting with the players on every 
team, and I can assure the Members of the Committee that these issues 
will receive serious and thoughtful discussion in those meetings.
    I should also add that in my 25 years in this industry I have come 
to appreciate that successful collective bargaining is not likely to 
take place in public, even before a Senate committee. Accordingly, 
while I am happy to engage in a discussion of these issues, it should 
be clear that we are not bargaining here.
    Let me also offer another note of caution. While we all agree that 
this issue is a very serious one, we should take care not to treat 
unsubstantiated media reports and rumors as if they were proven fact. I 
trust that each of you will agree that we must avoid even the 
possibility of smearing anyone. All who live in the public eye fully 
understand the damage that unfair accusations can inflict on an 
individual or group. For this reason, I will not discuss these issues 
with respect to any particular individual, and I urge the Members of 
the Committee to adopt a similar approach.
    I would also like to correct what may be a misimpression. If one 
simply were to pay attention to cursory sound bites or sensational 
magazine covers, one might believe that MLB and the MLBPA have no 
substance use/abuse program, or that, if one does exist, it makes no 
reference to steroids. Neither is true. The MLBPA and MLB have long 
worked with medical professionals to develop the current program, which 
is directed and administered by physicians appointed by our two 
organizations. It has a testing component, based upon reasonable cause 
to believe that a player has engaged in misconduct, or other activity 
affecting his ability to play. With respect to steroids, our policy is 
reflected in a brochure entitled ``Steroids and Nutritional 
Supplements'', distributed to all players as part of our educational 
program, copies of which are being provided to the Committee. Among 
other things, this brochure makes it clear:

  <bullet> that all ``AAS's'' (anabolic androgenic steroids) are 
        classified under Federal law as Schedule III drugs, requiring a 
        doctor's prescription;
  <bullet> there are serious health risks to the use of AAS's;
  <bullet> that there are serious penalties for unlawful use or 
        distribution of AAS's; and that
  <bullet> AAS's ``are prohibited in baseball''.

    But, as the Chairman and the Members of the Committee surely 
understand, this is an issue not so easily disposed of as the sound 
bites and rhetoric might suggest. There are complex public policy 
issues involved. Consider just one example: substances having steroidal 
properties (e.g., DHEA), or that we believe to be steroids (e.g. 
androstenedione) are fully legal under federal law and are sold over 
the counter in health food and other stores all across the nation, 
without even the simple protections of a warning label or an age 
restriction. As we have suggested in ``Steroids and Nutritional 
Supplements'', it may well be time for the federal government to 
revisit whether such products should also be covered by Schedule III. 
We would welcome such a reexamination by the Congress and/or the FDA.
    Another important issue which is implicated in this discussion can 
be summarized in a single word: privacy. We believe that any program 
can be successful only if stringent safeguards are in place to protect 
the privacy of the employees, particularly so in baseball where the 
lives of the players are so much in public view. We also recognize the 
public debate about the merits of cause based versus random testing. 
The MLBPA has always believed that one should not, absent compelling 
safety considerations, invade the privacy of someone without a 
substantial reason--i.e., without cause--related to that individual, 
and not merely to his status as an employed baseball player. We 
understand that the principles underlying the 4th Amendment's 
protection against unreasonable searches are not directly applicable to 
the private employment setting; nevertheless, such principles should 
not, we submit, be put aside lightly.
    Finally, let me address a question that is no doubt on the mind of 
the Chairman, Senator McCain, and the other Members of the Committee, 
who have for so long been supporters of amateur and professional sports 
in this country: what message do we send to the kids who are playing 
ball and may be dreaming of a career in the big leagues? Frankly, it is 
the same message we send to today's players: Play this great game to 
the best of your ability, and do so under the rules. Do not jeopardize 
your health. Do not use illegal drugs. And don't take any substance--
even if lawful--except on the advice and recommendation of a 
knowledgeable physician.

    Senator Dorgan. Mr. Fehr, thank you very much.
    Next we will hear from Greg Schwab. Mr. Schwab, when I 
mentioned you as a witness, I regrettably, did not give the 
second portion of the introduction. I said you were a former 
all-conference offensive lineman from the University of Oregon 
who took steroids in your attempt to make the San Diego 
Chargers football team. I should have proceeded to say, as 
well, that you've since become a passionate advocate against 
steroid use, as a high school coach and a high school associate 
principal. You've had one-on-one experience with high school 
students who have attempted to use steroids, and we appreciate 
your work. I should have mentioned that as the second portion 
of you introduction. I do so now.
    We welcome you here, and we'll be happy to receive your 
testimony.

  STATEMENT OF GREG SCHWAB, ASSOCIATE PRINCIPAL, TIGARD HIGH 
                             SCHOOL

    Mr. Schwab. Thank you. It's truly a great honor for me to 
be here today.
    Dietary supplements and performance-enhancing drug use 
among high school athletes is increasing at an alarming rate. 
Recent studies have shown as much as a 60 percent increase in 
steroid use among high school athletes.
    To better understand what has caused this increase, I would 
like to share with you some of the things I have observed in my 
14 years as a teacher, as a coach, and currently as a school 
administrator. I would also like to draw on some of my insights 
as someone who has experienced steroid use firsthand for two 
and a half years as a college football player and an aspiring 
player in the National Football League.
    For whatever reason, the focus of high school athletics has 
shifted today. No longer do we preach the values taught by 
participation in a team or individual sport--the values of 
competition, teamwork, dedication, and cooperation. These 
values have been replaced by a new focus or value, simply to 
excel at the highest possible level.
    Now, while you may be asking yourself, ``What is so bad 
about wanting to excel at the highest level,'' consider what 
many of these high school athletes are willing to do in order 
to excel. High school athletes today use all sorts of sports 
supplements. Protein powders, sports drinks, ephedrine, 
creatine, and androstenedione are used routinely today as part 
of their training regimens. Any high school athlete can walk 
into a store or health club and purchase these dietary 
supplements, no questions asked.
    On several occasions, I have had conversations with the 
athletes I coached about these issues. Many of them have come 
to me to ask my advice about taking supplements to help them 
perform at their highest levels. I have always stressed: take 
healthier alternatives to these supplements. But for many, 
supplements are simply too easy to get. Now, while I am no 
expert on this, I have always believed that dietary supplement 
use can lead athletes to using performance-enhancing drugs, 
like anabolic steroids.
    The three-sport athlete no longer exists in most high 
schools today. They have been replaced by athletes who train 
year round, honing their skills in one sport. Basketball teams 
play 60 games in the summer, plus a 25-game regular season 
schedule. Baseball players play 50 games in fall leagues in 
addition to 25-regular season schedules and 50-game summer 
schedules.
    As a football coach, I expect my players to commit 
countless hours in the weight room, running, lifting, and 
working on fundamental skills. Add to this the proliferation of 
summer sport camps athletes and coaches can choose from, and it 
is no wonder that many high school athletes have no time for 
other activities they might be interested in, and it is no 
wonder that many athletes feel they have to turn to supplements 
in order to have the strength to complete these long seasons.
    For many male high school athletes, pro athletes are major 
influences. They are the role models. They choose the jersey 
numbers of their favorite professional players. They emulate 
their training regimens. They emulate their style of play. And 
they are influenced by the supplement and drug use. When a 
professional athlete admits to using steroids, the message 
young athletes hear is not always the one that is intended. 
Young athletes often believe that steroid use by their role 
models gives them permission to use, that is simply part of 
what one must do in order to become an elite athlete.
    Coaches, whether they intend to or not, put a great deal of 
pressure on their athletes. The demands and expectations of 
most high school programs rival many college programs. In a 
sport like football, where the emphasis is on getting bigger 
and stronger, coaches are constantly pressuring their athletes 
to gain more weight, to be able to lift more weight than they 
could a month ago. As a coach, I caught myself saying to my 
athletes the very things that made me feel the pressure to grow 
in size and strength beyond what my body was capable of 
naturally. Athletes grow to feel like no matter what they do, 
it is not going to be enough for their coaches. Couple this 
with the fact that athletes are, by their nature, highly 
competitive, and it is easy to understand why they might turn 
to supplements and performance-enhancing drugs, like anabolic 
steroids.
    One of the biggest challenges I faced as a coach was trying 
to effectively dissuade my athletes from using supplements and 
performance-enhancing drugs. I have always been very open and 
honest with anyone who asks me about my using steroids. I've 
regularly shared with my athletes the effects that steroids had 
on me while I used them for two and a half years during my 
career as a football player. My hope is that if I can relate to 
them on a personal level, they will be more likely to listen to 
me. Too often, though, what they see is someone who used 
steroids and turned out fine. Instead of listening to me 
because I am being honest, they think that, if nothing bad 
happened to me, then they will have the same experience.
    The problem is that there is too little information out 
there on the dangers of steroids. All adolescents hear is how 
much steroids will help them perform. We need to get the word 
out at every level and in every way that steroids and 
supplements are dangerous.
    I cannot stress enough how easy it is to get supplements. I 
cannot stress enough how widespread the use of the supplements 
is among high school athletes. Drug stores, supermarkets, and 
health food stores all carry these supplements, and they can be 
purchased by anyone. While I can only speak for the athletes I 
coached, I would say that at least 70 percent of them have used 
some kind of dietary supplement.
    Percentages of steroid use are much harder to predict, 
partly because steroid users simply do not talk about their 
use. It is not something that anyone would openly admit to. 
Based on my personal experience, the number of the athletes 
that I have worked with over the years, a conservative estimate 
would be between five and ten percent of the athletes that I 
have coached have used steroids.
    I hope you understand that supplement and steroid use among 
high school athletes is a growing problem that needs to be 
addressed. I strongly encourage you to take the lead and help 
curb this problem. Steroid precursors, sold as dietary 
supplements, need to be regulated. They need to become harder 
to get. I cannot stress enough what kind of impact supplement 
use has on young athletes. This, to me, seems to be the first 
step in helping to solve the larger issue of steroid use.
    Thank you.
    [The prepared statement of Mr. Schwab follows:]

        Prepared Statement of Greg Schwab, Associate Principal, 
                           Tigard High School

    Good Morning, my name is Greg Schwab.
    Dietary supplements and performance-enhancing drug use among high 
school athletes is increasing at an alarming rate. Recent studies have 
shown as much a 60 percent increase in steroid use among high school 
athletes. To better understand what has caused this increase; I would 
like to share with you some of the things I have observed in my 14 
years as a teacher, coach, and school administrator. I will also draw 
on my insights as someone who has experienced steroid use firsthand for 
two and a half years as a college football player and an aspiring 
player in National Football League.
    For whatever reason, the focus of high school athletics has 
shifted. No longer do we preach the values taught by participation in a 
team or individual sport, the values of competition, teamwork, 
dedication, and cooperation. These have been replaced by a new focus or 
value, simply to excel at the highest possible level. While you may be 
asking yourself, ``what is so bad about wanting to excel at the highest 
level?'' consider what many of these high school athletes are willing 
to do in order to excel. High school athletes use all sports 
supplements like protein powders, sports drinks, ephedrine, creatine, 
and androstenedione routinely today as part of their training regimen. 
Any high school athlete can walk into a store or health club and 
purchase these dietary supplements no questions asked. On several 
occasions I have had conversations with athletes I coached about these 
issues. Many times they have come to me to ask my advice about taking 
supplements to help them perform at their highest levels. I have always 
stressed healthier alternatives to these supplements, but for many the 
supplements are simply too easy to get. While I am no expert on this, I 
have always believed that dietary supplements can lead athletes to 
using performance-enhancing drugs like anabolic steroids.
    The three-sport athlete no longer exists in most high schools 
today. They have been replaced by athletes who train year-round, honing 
their skills in one sport. Basketball teams play 60 games during the 
summer, plus a 25-game regular season. Baseball plays 50 games in fall 
leagues, in addition to the 25-game regular season schedule and the 50-
game summer season schedule. As a coach, I expected my football players 
to commit countless hours in the weight room lifting, running, and 
working on fundamental skills. Add to this the proliferation of summer 
sports camps athletes and coaches can choose from, and it is no wonder 
that high school athletes have no time for any other activities they 
might be interested in. any athletes feel they have to turn to 
supplements to have the strength to compete through the long schedules.
    For many male high school athletes, pro athletes are major 
influences. They are the role models. They choose the jersey numbers of 
their favorite professional players. They emulate their training 
regimens. They emulate their style of play. And they are influenced by 
their drug use. When a professional athlete admits to using steroids, 
the message young athletes hear is not always the one that is intended. 
Young athletes often believe that steroid use by their role models 
gives them permission to use. That it is simply part of what one must 
do to become an elite athlete.
    Coaches, whether they intend to or not, put a great deal of 
pressure of their athletes. The demands and expectations of most high 
school programs rival many college programs. In a sport like football, 
where the emphasis is on getting bigger and stronger, coaches are 
constantly pressuring their athletes to gain more weight or to be able 
to lift more weight than they could a month ago. As a coach, I caught 
myself saying to my athletes the very things that made me feel the 
pressure to grow in size and strength beyond what my body was capable 
of naturally. Athletes grow to feel like no matter what they do, it is 
not going to be enough for their coaches. Couple this with the fact 
that athletes are by their very nature, highly competitive, and it is 
easy to understand how and why they might turn to performance enhancing 
drugs like anabolic steroids.
    One of the biggest challenges I faced as a coach was trying to 
effectively dissuade my athletes from using supplements and performance 
enhancing drugs. I have always been very open and honest with anyone 
who asks me about my use of steroids. I regularly shared with my 
athletes the effects that steroids had on me while I used them for two-
and-a-half years during my career as a football player. My hope is that 
if I can relate to them on a personal level, they will be more likely 
to listen to me. Too often though, what they see is someone who used 
steroids and turned out fine. Instead of listening to me because I am 
being honest, they think that if nothing bad happened to me, then they 
will have the same experience. The problem is that there is too little 
information out there about the dangers of steroids. All adolescents 
hear is how much steroids will help them perform. We need to get the 
word out at every level and in every way that steroids are dangerous.
    I cannot stress enough how easy it is to get supplements. I cannot 
stress enough how widespread use of supplements is among high school 
athletes. Drug stores, supermarkets, and health food stores all carry 
these supplements and they can be purchased by anyone. While I can only 
speak for the athletes I coached, I would say that at least 70 percent 
of them are using some kind of dietary supplement. Percentages of 
steroid use are much harder to predict, partly because steroid users 
simply do not talk about their use. It is not something that anyone 
would openly admit to. Based on my personal experience and the number 
of athletes I have worked with over the years, a conservative estimate 
would be between 5 percent and 10 percent of athletes I have coached 
used steroids.
    I hope you understand that supplement and steroid use among high 
school athletes is a growing problem that needs to be addressed. I 
strongly encourage you to take the lead and help to curb this problem. 
Steroid precursors sold as dietary supplements need to be regulated, 
they need to be harder to get. I cannot stress enough what kind of 
impact supplement use has on young athletes. This, to me, seems to be 
the first step in helping to solve the larger issue of steroid use.
    Thank you.

    Senator Dorgan. Mr. Schwab, thank you very much for your 
testimony. We appreciate your being here.
    Next we will near from Mr. Frank Shorter, chairman of the 
board for the United States Anti-Doping Agency. A former 
Olympic athlete, Mr. Shorter won the gold medal in the marathon 
at the 1972 Olympic Games in Munich, and the silver medal at 
the 1976 Olympic Games in Montreal.
    Mr. Shorter, welcome. We're pleased that you are here. You 
may proceed.

STATEMENT OF FRANK SHORTER, CHAIRMAN, UNITED STATES ANTI-DOPING 
                             AGENCY

    Mr. Shorter. Thank you. Good morning, Mr. Chairman, Members 
of the Committee. My name is Frank Shorter, and thank you very 
much for the opportunity to appear before you today.
    I may be better known as an Olympic marathoner and 
television commentator, but today I come to you as chairman of 
the United States Anti-Doping Agency, which has been recognized 
by Congress as the independent--independent--national anti-
doping agency for the Olympic sport in the United States. Our 
mission is to protect and preserve the health of athletes, the 
integrity of competition, and the well-being of sports through 
the elimination of doping. Last year, we conducted more than 
4,800 tests for steroids and other prohibited doping 
substances, many of these totally unannounced.
    As is readily apparent from today's headlines, anabolic 
steroids and the many steroid precursors sold in the United 
States as dietary supplements have become a major problem in 
sport. U.S. athletes are in the untenable position of being at 
risk of a failed doping test, if they take any dietary 
supplement, because of product contamination.
    In Olympic sport, the most notable systematic, State-
supported program of doping with anabolic steroids was that 
conducted by the East Germans from 1974 until the Berlin Wall 
fell in 1989. For example, after less than two years of steroid 
use, the East German women's swimming team competed in the 1976 
Olympics in Montreal. In contrast to their performance in 1972, 
when they won only 5 medals, they won 18 medals, including 11 
of 13 possible golds in 1976. The results of this program have 
since been substantiated through the testimony of many of the 
athletes themselves, their coaches and doctors, during the East 
German doping trials where doctors and coaches were convicted.
    The documented side effects of steroids and steroid 
precursors among these East German athletes and others are 
severe. They include effects on the liver and reproductive 
system, growth arrest in adolescence, susceptibility to 
cancers, permanent--permanent--masculinization of women, and 
feelings of androgyny that are permanent--let's not forget the 
other half of the population here--shrinking of testicles and 
impotence in men, and severe facial disfiguring through acne.
    Now, I have a very personal interest in doping in Olympic 
sport. I won the gold medal for the United States in the 
marathon in the 1972 Olympics in Munich. And four years later, 
I ran an even better race, but finished second to an East 
German at the Montreal games. At the time, I knew it would be 
absolutely possible to increase my performances and increase my 
chances of beating the East Germans and others who were using 
steroids--and let me tell you, the athletes know who's doing 
what--but it never occurred to me to do so. To me, that's not 
what sport is about. I didn't cheat, and I finished second.
    In our current sport environment, the availability of 
steroid precursors as dietary supplements is of major concern. 
And one example, as we've all seen here, is androstenedione, 
which originally was developed as part of the East German 
steroid program. It metabolizes into the body into the steroid 
testosterone.
    And following the acknowledgment by Mark McGwire in his 
home-run record year that he's used androstenedione, as we've 
seen, sales in the United States dramatically increased, as 
Senator McCain mentioned. This phenomenal demand, particularly 
among teenagers, led to the mass marketing of other steroid 
precursors, like norandrostenedione, which also metabolizes in 
the body and produces a steroid nandrolone.
    Through our testing program, USADA has recognized a serious 
problem with the sale of steroid precursors and dietary 
supplements. In increasing numbers, athletes are failing doping 
tests after taking mislabeled dietary supplements. Reasonably 
cautious athletes know how to avoid products that have steroid 
precursors reflected on the product label. But, unfortunately, 
a surprisingly high percentage of dietary supplements contain 
doping substances, which will get you busted by us, that are 
not on the label.
    The International Olympic Committee found, in a recent 
study of 624 dietary supplements, that 41 percent of the 
products from American companies contained a steroid precursor 
or a banned substance, and it wasn't disclosed on the label.
    The fact that U.S. companies have flooded the market with 
steroid precursors has caused the international sporting 
community to charge that the United States is the prime source 
of international doping pollution. The international community 
can't understand why all our professional sports do not test 
for steroids and other performance-enhancing substances. They 
simply can't understand why we allow steroid precursors to be 
sold over the counter, like candy, to our teenagers and to 
their teenagers, via the Internet. It is important to the image 
of America and to all clean athletes to not be perceived as a 
society that condones the use of steroids and steroid 
precursors.
    The status quo presents significant health risks for 
athletes and the general public. It undermines the image of the 
United States and our athletes as actually being committed to 
drug-free sport. The solution to the steroid precursor problem 
is to follow the lead of other nations and regulate steroid 
precursors as steroids, give them steroid status. This could be 
accomplished through a minor modification of the Controlled 
Substances Act that already recognizes the importance of 
regulating immediate precursors to controlled substances--in 
other words, precursors in manufacturing, as opposed to 
metabolizing in your body. With only a minor modification, the 
definition in the act of ``immediate precursor,'' the Attorney 
General would have the authority to classify steroid precursors 
as controlled substances equal to steroids. It is likely that 
the production of these steroid precursors will stop as soon as 
they can no longer be sold over the counter.
    Our organization considers Congress to be the appropriate 
place to turn for the necessary leadership on these issues. 
USADA believes we are in the midst of a health crisis that's 
rooted in professional and amateur sport and impacts the youth 
of our nation. It's not limited to their quest for athletic 
performance and accomplishment, but also includes the basic 
pursuit of recognition.
    Now is the time to enact change that will prevent our 
children from becoming a generation exposed to wide steroid 
use. Children have always emulated their sports idols. I did. 
And these same children--we have to wake up to the fact--more 
often than we would like to admit, know much more than adults--
their parents and everyone else who's an adult--do about just 
what their idols did and are doing to achieve their goals. They 
should never have to feel that, at some time in their athletic 
careers, there will be no choice but to take these illegal 
performance-enhancing drugs and the precursors that produce 
these drugs in their bodies.
    We plead with you to provide intervention to this health 
crisis and seek legislation and regulation.
    Thank you.
    [The prepared statement of Mr. Shorter follows:]

            Prepared Statement of Frank Shorter, Chairman, 
                    United States Anti-Doping Agency

    Good morning, my name is Frank Shorter. Thank you for the 
opportunity to testify before you today. You may know me as an Olympic 
marathoner and television commentator, but today I come to you as the 
Chairman of the United States Anti-Doping Agency, which has been 
recognized by Congress as the independent, national anti-doping agency 
for Olympic sport in the United States. Our mission is to protect and 
preserve the health of athletes, the integrity of competition, and the 
well-being of sport through the elimination of doping. Last year we 
conducted more than 4800 tests for steroids and other prohibited doping 
substances. As is readily apparent from today's headlines, anabolic 
steroids and the many steroid precursors sold in the United States as 
dietary supplements have become a major problem in sport. U.S. athletes 
are in the untenable position of being at risk of a failed doping test 
if they take any dietary supplement because of product contamination.
    In Olympic sport, the most notable, systematic state-supported 
program of doping with anabolic steroids was that conducted by the East 
Germans from 1974 until the Berlin Wall fell. For example, after less 
than two years of steroid use the East German women's swimming team 
competed in the 1976 Olympics in Montreal. In contrast to their 
performance in 1972, when they won only five medals, they won 18 medals 
including 11 out of 13 possible golds in the 1976 Games. The results of 
this program have since been substantiated through the testimony of 
many of the athletes themselves, their coaches and doctors during the 
East German doping trials.
    The documented side effects of steroids and steroid precursors 
among these East German athletes and others, are severe and include 
effects on the liver and reproductive system, growth arrest in 
adolescents, susceptibility to cancers, permanent masculinization of 
women, shrinking of testicles and impotence in men, and scarring from 
steroid acne.
    I have a very personal interest in doping in Olympic Sport. I won 
the gold medal for the United States in the marathon at the 1972 
Olympics in Munich. Four years later, I ran an even better race but 
finished second to an East German at the Montreal Games. At the time, I 
knew that it would be absolutely possible to increase my chances of 
beating the East Germans and others who were using steroids if I 
cheated by doping, but it never occurred to me to do so. To me that is 
not what sport is about. I didn't cheat and I finished second.
    In the current sport environment, the availability of steroid 
precursors as dietary supplements is of major concern. One example is 
androstenedione, which, originally developed as part of the East German 
steroid program, metabolizes in the body into the steroid testosterone.
    Following the acknowledgement by Mark McGwire in his home run 
record year, that he had used androstenedione, sales in the United 
States dramatically increased. This phenomenal demand, particularly 
among teenagers, led to the mass marketing of other steroid precursors 
like 19-norandrostenedione, which metabolizes in the body into the 
steroid nandrolone.
    Through our testing program USADA has recognized a serious problem 
with the sale of steroid precursors in dietary supplements. In 
increasing numbers, athletes are failing doping tests after taking mis-
labeled dietary supplements. Reasonably cautious athletes know to avoid 
products, which have steroid precursors reflected on the product label. 
Unfortunately, a surprisingly high percentage of dietary supplements 
contain doping substances, which are not disclosed on the label. For 
example, a recent study of 624 dietary supplements by the International 
Olympic Committee found that 41 percent of the products from American 
companies contained a steroid precursor or banned substance not 
disclosed on the label.
    The fact that U.S. companies have flooded the market with steroid 
precursors has caused the international sporting community to charge 
that the United States is the prime source of ``international doping 
pollution.'' The international community simply can't understand why 
all of our professional sports do not test for steroids and other 
performance enhancing substances. They can't understand why we allow 
steroid precursors to be sold over the counter like candy to our 
teenagers (and their teenagers via the Internet). It is important to 
the image of America and to all clean American athletes that we not be 
perceived as a society that condones the use of steroids and steroid 
precursors.
    The status quo presents significant health risks for athletes and 
the general public; it undermines the image of the United States and 
our athletes as being committed to drug-free sport. The solution to the 
steroid precursor problem is to follow the lead of other nations and 
regulate steroid precursors as steroids. This could be accomplished 
through a minor modification of the Controlled Substances Act, which 
already recognizes the importance of regulating immediate precursors to 
controlled substances. With only a minor modification to the Act's 
definition of ``Immediate Precursor'' the Attorney General would have 
the authority to classify steroid precursors as controlled substances 
equal to steroids. It is likely that the production of these steroid 
precursors will stop as soon as they can no longer be sold over the 
counter.
    Our organization considers Congress to be the appropriate place to 
turn for the necessary leadership on these issues. USADA believes we 
are in the midst of a health crisis, which while and the development of 
a body that mirrors the image of the elite athlete. Now is rooted in 
professional and amateur sport impacts the youth of our nation. It is 
not limited to their quest for athletic performance and accomplishment, 
but includes the pursuit of recognition the time to enact change that 
will prevent our children from becoming a generation exposed to 
widespread steroid use. Children have always emulated their sports 
idols, I did. And these same children, more often than we would like to 
admit, know much more than adults do about just what their idols did 
and are doing to achieve their goals. They should never have to feel 
that at some time in their athletic futures there will be no choice but 
to take these illegal performance enhancing drugs and precursors. We 
plead with you to provide intervention to this health crisis and seek 
revised legislation and regulation.
    Thank you.

    Senator Dorgan. Mr. Shorter, thank you very much.
    And, finally, we will hear from Dr. Bernard Greisemer. He 
is a pediatrician from Missouri who has written extensively 
about steroid use and teenagers.
    Dr. Greisemer, thank you for being here. Why don't you 
proceed?

        STATEMENT OF DR. BERNARD GREISEMER, PEDIATRICIAN

    Dr. Greisemer. Thank you, Mr. Chairman.
    This year, I will begin my 25th year as a pediatrician and 
sports medicine specialist, and I appreciate this opportunity 
to present both medical information and my concerns regarding 
the increasing use in young athletes of products that contain 
anabolic steroids. The highly publicized use of these 
substances by professional athletes does influence the 
incidence of use in elementary, middle school, high school, and 
collegiate athletes.
    For purposes of our discussion, pediatricians do not 
distinguish between anabolic steroids and steroid precursors 
that are in dietary supplements. These substances have the same 
effects. These substances have the same health risks.
    There are three points I would like to briefly address that 
serve to reinforce some of the statements that Senator McCain 
made in his opening comments. There are major health problems 
associated with the use of anabolic steroids in all age ranges. 
However, the side effects of anabolic steroids in younger 
athletes have the potential of far greater risks than they do 
in adult athletes. Young athletes who start using these 
products in the middle school years and continue to use them 
through adolescence and into adulthood are likely to face 
higher risks of cardiac, hepatic, dermatologic damage. Many of 
my teenage male athletes are very unhappy to learn that 
managing their premature male pattern baldness is very 
difficult if they have been using dietary supplements with 
steroids since they were in 7th grade. The risk of 
cardiovascular complications of the use of these substances are 
the subject of ongoing research. And the possibility that the 
complication rate for younger athletes is higher than the adult 
population is only now beginning to be explored. The list of 
organ systems in young athletes that can potentially suffer 
severe adverse effects of anabolic steroids includes nearly 
every organ system in the human body.
    One side effect of these substances is unique to the 
younger athletes. Medical research has documented that anabolic 
steroids, even when used in disease management, result in the 
acceleration of pubertal development and premature height 
growth arrest. This adverse effect is not seen in the adult 
population of athletes and is unique to the skeletally immature 
young athlete. This growth arrest is irreversible.
    In women of all ages, many of the effects of these 
substances on the vocal cords and the reproductive system are 
irreversible. The evidence that these products result in long-
term health complications in young women and may even result in 
severe deformities in their offspring is currently coming to 
public attention in Germany.
    Younger athletes also have an additional problem. The 
product disclaimers and fine print lists of side effects that 
accompany these substances are often written in language that 
exceeds the reading comprehension level of middle school 
students. Young athletes see the flashy banners, hear the 
endorsements of professional athletes, and see the effects of 
these drugs on professional athletes when they are competing on 
television. Young athletes are less likely to read and 
understand warning labels.
    Further, in many circumstances, the labeling of products 
containing anabolic steroids is either inaccurate or 
unavailable. This fact is primarily what brings young athletes 
into our offices with questions about anabolic androgenic 
steroids.
    This leads to my second point of discussion. The effect of 
media exposure and marketing campaigns on young athletes is 
clearly established. Perception about self image, peer 
relationships, and success are easily manipulated at this age 
range. Major corporate efforts and financial resources are 
targeted at this age range in attempts to influence lifestyles 
and purchasing trends. These trends are expected to persist 
into adulthood. This statement is supported by research in our 
medical literature and by research from the media, advertising, 
and marketing industries.
    In this context, professional athletes are major role 
models for our young athletes in the clothes they wear, the 
cars they drive, the food they eat, and the drugs and dietary 
supplements they take. The millions of dollars that are spent 
by major corporations in linking their products to a particular 
athlete, team, or sporting event counter any argument that 
professional athletes are not affecting the lifestyles of our 
young athletes. Use of and media exposure of the use of 
anabolic steroids among professional athletes also directly 
affects the interest in, the perception of benefits of, and the 
use of these substances in our young athletes.
    I need to emphasize that I and other pediatricians are 
seeing the effect that professional athletes' behavior has in 
affecting the behavior of our young athletes at increasingly 
younger ages over the last two decades. We see this in the 
questions they ask regarding anabolic steroids and other 
dietary supplements that are promoted as having anabolic 
performance-enhancing effects. We see the frequency of these 
questions with each new media expose of the use of these 
substances by professional athletes.
    Pediatric medical literature has now documented the use of 
these products that contain anabolic androgenic steroids in 
athletes as early as the middle school age range. Recent 
research has documented use of anabolic androgenic steroids in 
2.6 percent of both male and female young athletes as early as 
5th grade.
    In my experience, one of the most compelling reasons that 
these young athletes are using or are thinking about using 
these products is that the media and the aggressive marketing 
campaign used by manufacturers all identify these products--and 
in the case of manufacturers, heavily promote the use of these 
products--as being used by the pros.
    Third, pediatricians strongly agree with the Surgeon 
General of the United States that physical activity and proper 
nutrition are critical components of health in our young 
people. Establishing lifelong patterns of physical activity in 
the middle school and high school age ranges is one of the most 
effective means of achieving this goal. Youth sports are the 
most important way in which American youth become and remain 
physically active. Any role model for youth in the arena of 
sports could have a positive influence on these young athletes 
to initiate and to continue competitive physical activity.
    Conversely, any perception that a young athlete can't 
participate, compete, or excel in sports without the use of 
anabolic steroids will adversely affect youth participation in 
sports. If the perception involving professional athletes and 
anabolic steroids is that everybody does it or you can't win 
without these substances, many young athletes will either stop 
participating or start using these substances.
    With physical activity becoming an increasingly important 
component of health in America, any effort to reduce the use of 
anabolic steroids, at all levels of competition, will increase 
the participation rates of our young athletes, who understand 
that they can just do it without cheating. Pediatricians are 
adamant in their support of any program or legislation that 
strives to keep our young athletes healthy and strives to keep 
our youth sports programs healthy and drug-free.
    In summary, I strongly urge you to support any program that 
seeks to improve the health of the children in America. I 
strongly urge you to consider the impact of the use of the 
anabolic androgenic steroids by professional athletes and the 
effect that it has on our young athletes. Any effort to curb 
the use of these products in athletes of all ages, whether by 
drug-testing programs and educational programs that are 
currently being developed by USADA, or by supporting youth 
programs that promote healthy training and conditioning 
alternatives to the use of these drugs, will be helpful to us. 
Pediatricians are working hard to develop healthy, drug-free, 
physically active young Americans.
    I thank you again for this opportunity to bring this 
important issue to your attention.
    [The prepared statement of Dr. Greisemer follows:]

       Prepared Statement of Dr. Bernard Greisemer, Pediatrician

    Good morning, my name is Dr. Bernard Greisemer.
    This year, I will begin my twenty-fifth year as a pediatrician and 
a sports medicine specialist. I appreciate this opportunity to present 
both medical information and my concerns regarding the increasing use 
in young athletes of products that contain anabolic steroids. The 
highly publicized use of these substances by professional athletes does 
influence the incidence of use in elementary, middle school, high 
school, and collegiate athletes.
    For the purpose of our discussion, pediatricians do not distinguish 
between anabolic steroids and steroid precursors that are in dietary 
supplements. These substances have same effects and health risks.
    There are three points that I would like to briefly address.
    There are major health problems associated with the use of anabolic 
steroids in all age ranges. However, the side effects of anabolic 
steroids in younger athletes have the potential of far greater risks 
that they do in adult athletes. Young athletes who start using these 
products in the middle school years and continue to use them through 
adolescence and into adulthood are likely to face higher risks of 
cardiac, hepatic, and dermatologic damage. Many of my teenage male 
athletes are very unhappy to learn that managing their premature male 
pattern baldness is very difficult if they have been using dietary 
supplements with anabolic steroids since they were in seventh grade. 
The risks of cardiovascular complications of the use of these 
substances are the subject of ongoing research and the possibility that 
the complication rate for younger athletes is higher is only now 
beginning to be explored. The list of organ systems in young athletes 
that potentially can suffer adverse effects of anabolic steroids 
includes nearly every organ system in the human body.
    One side effect of these substances is unique to the younger 
athletes. Medical research has documented that anabolic steroids, even 
when used in disease management, results in the acceleration of 
pubertal development and premature height growth arrest. This adverse 
effect is not seen in the adult population of athletes and is unique to 
the skeletally immature young athlete. This growth arrest is 
irreversible.
    In women of all ages many of the effects of these substances on the 
vocal cords and the reproductive system are irreversible. The evidence 
that these products result in long health complications in young women 
and may even result in severe deformities in their offspring is 
currently coming to public attention in Germany.
    Younger athletes also have an additional problem. The product 
disclaimers and fine-print list of side effects that accompany these 
substances are often written in language that exceeds the reading 
comprehension level of middle school students. Young athletes see the 
flashy banners, hear the endorsements of professional athletes, and see 
the effects of these drugs on professional athletes when they are 
competing on television. Young athletes are less likely to read and 
understand warning labels. Further, in many circumstances the labeling 
of products containing anabolic steroids is either inaccurate or 
unavailable. This fact is primarily what brings young athletes into our 
offices with questions about anabolic androgenic steroids.
    This leads to my second point of discussion. The effect of media 
exposure and marketing campaigns on young athletes is clearly 
established. Perceptions about self-image, peer relationships, and 
success are easily manipulated at this age range. Major corporate 
efforts and financial resources are targeted at this age range in 
attempts to influence lifestyles and purchasing trends that are 
expected to persist into adulthood. This statement is supported by 
research in our medical literature and by research in the media, 
advertising, and marketing industries. In this context, professional 
athletes are major role models for our young athletes; in the clothes 
they wear, the cars they drive, the food they eat, and the drugs and 
dietary supplements they take. The millions of dollars that are spent 
by major corporations in linking their products to a particular 
athlete, team, or sporting event, counter any argument that 
professional athletes are not affecting the lifestyles of our young 
athletes. Use of, and media exposure of the use of, anabolic steroids 
in professional athletes also directly affects the interest in, the 
perception of benefits of, and the use of these substances.
    I need to emphasize that myself and other pediatricians are seeing 
the effect of professional athlete's behavior affecting the behavior of 
our young athletes at increasingly younger ages over the last two 
decades. We see this influence in the questions they ask regarding 
anabolic steroids and other dietary supplements that are promoted as 
having anabolic performance enhancing effects. We see the frequency of 
these questions surge with each new media expose of the use of these 
substances by professional athletes. The pediatric medical literature 
also has documented the use of products that contain anabolic 
androgenic steroids in athletes as early as the middle school age 
range. Recent research has documented use of anabolic androgenic 
steroids in 2.6 percent of both male and female young athletes as early 
as fifth grade. In my experience, one of the most compelling reasons 
that these young athletes are using or are thinking about using these 
products is that the media and the aggressive marketing campaigns used 
by manufacturers all identify these products (and in the case of the 
manufacturers, heavily promote the use of these products) as being 
``used by the pros''.
    Third, pediatricians strongly agree with the Surgeon General of the 
United States that physical activity and proper nutrition are critical 
components of health in our young people. Establishing lifelong 
patterns of physical activity in the middle school and high school age 
ranges is one of the most effective means of achieving this goal. Youth 
sports are one of the most important ways in which American youth 
become and remain physically active. Any role model for youth in the 
arena of sports could have a positive influence on these young athletes 
to initiate or to continue competitive physical activity. Conversely, 
any perception that a young athlete can't participate, compete or excel 
in sports without the use of anabolic steroids will adversely affect 
youth participation in sports. If the perception involving professional 
athletes and anabolic steroids is that ``everyone does it'' or ``you 
can't win without these substances'' many young athletes will either 
stop participating or start using these substances. With physical 
activity becoming an increasingly important component of health in 
America, any effort that seeks to reduce the use of anabolic steroids, 
at all levels of competition, will increase the participation rates 
among our young athletes who will understand that they can ``just do 
it'' without cheating. Pediatricians are adamant in their support of 
any program or legislation that strives to keep our young athletes 
healthy and strives to keep our youth sports programs healthy and drug 
free.
    In summary, I strongly urge you to support any program that seeks 
to improve the health of the children in America. I strongly urge you 
to consider the impact that use of anabolic androgenic steroids by 
professional athletes has on our young athletes. Any effort to curb the 
use of these products in athletes of all ages, whether by drug testing 
programs and educational programs as currently are being developed by 
USADA, or by supporting youth sport programs that promote healthy 
training and conditioning alternatives to the use of these drugs, will 
be helpful to us. Pediatricians are working hard to develop healthy, 
drug free, physically active young Americans.
    I would again like to thank you for this opportunity to bring this 
important issue to your attention.

    Senator Dorgan. Dr. Greisemer, thank you very much. Can you 
talk about the product samples you have before you?
    Mr. Shorter. These were just a trip to a local supplement 
store--went in and bought them. And this would be 
androstenedione. This would be norandrostenedione. The doctor 
can explain this one. This one has progesterone. I don't know 
why you would want to rub a gel, if you're a man, on your arm 
with something that's----
    Dr. Greisemer. Now, why one of my male 18-year-old patients 
would want to put an oral contraceptive on his scalp is beyond 
me.
    Senator Dorgan. Well, it's beyond us, as well.
    [Laughter.]
    Senator Dorgan. You want to----
    Mr. Shorter. But I think the operative--the illustration 
is, this essentially--androstenedione  was developed by the 
East Germans, because it was a very convenient way of basically 
getting testosterone into the bodies of their athletes, and a 
12-year-old kid can buy it like candy.
    Our main attorney sent his 11-year-old son into a health 
food store last year, and he was able to buy all this stuff.
    Senator Dorgan. So let me start then, with a question that 
relates to that. If, for example, in baseball, they ban steroid 
use and test for it--have a rigid testing regime--but don't 
deal with the precursors, have they solved the problem, Mr. 
Shorter?
    Mr. Shorter. Well, if they test for--the doctor can answer 
that a little better--but if they do ban the use of 
testosterone, no, they would have to ban the use of 
androstenedione.
    Dr. Greisemer. The dietary precursors, the level of 
sophistication in testing will pick up the dietary supplement 
precursors of anabolic steroids. So if they allow testing, they 
will pick up the use of those precursors.
    Senator Dorgan. And, Mr. Colangelo, you have ownership of 
both a team in Major League Baseball and also in the National 
Basketball Association. You have two professional teams. You 
have testing mandatory in one and not in the other. Is that 
correct?
    Mr. Colangelo. Yes.
    Senator Dorgan. Can you describe the two circumstances? Do 
you feel confidence that the testing with respect to the NBA 
players is effective and testing that can be relied upon?
    Mr. Colangelo. Yes. First of all, I was more or less 
appalled to find out that baseball did not have a program when 
I came into baseball, because I have been front and center in 
the NBA on this issue. I had some personal experiences with our 
basketball team years ago in Phoenix, and basically took on the 
Players Association on this issue, head on. I've been a strong 
proponent of random mandatory testing, not to catch anyone, but 
to serve as the ultimate deterrent. I'm convinced that that's 
exactly what needs to be done.
    I think this is a program that could be monitored 
internally, as we do in the NBA, between the Players 
Association and ownership. It does work. It may not be perfect, 
but it's a program that exists. And I'm very happy that we have 
one in the NBA and very hopeful that we have one in Major 
League Baseball soon.
    Senator Dorgan. Mr. Fehr, I'm going to ask you a question, 
but I want to follow on that with Mr. Shorter and Dr. 
Greisemer. In the NBA, they have a testing program. Would that 
testing--or perhaps I should ask Mr. Colangelo--would that 
testing pick up these precursor supplements? And are these 
precursors supplements banned in the NBA?
    Dr. Greisemer. I can't answer the question of whether they 
are banned, but I know that if adequate testing is done, 
depending on the testing they do, they will pick up use of 
these precursors.
    Senator Dorgan. So if someone in the NBA were taking andro, 
they would pick that up in the testing?
    Dr. Greisemer. And if the testing program uses the 
appropriate panels, they will pick it up.
    Senator Dorgan. I see. I would be interested to try to 
understand whether in the other sports that do mandatory 
testing, whether those supplements are included as banned 
substances.
    Mr. Colangelo. You know, the only comment I'd like to add 
there is, certainly I'd like to see these products taken off 
the marketplace. I would. But we can't control that. That's in 
your domain. But short of that, if leagues ban the use of 
substances, and a player chooses to use the substance, whether 
he can buy it off the counter or not, it's still breaking the 
rule. And so, you know, an intelligent person makes that 
decision, one way or the other.
    And so, you know, I think it's important to note that in 
the NBA, as it is in the NFL, privacy, which seems to be the 
big obstacle, you know, as far as the Players Association is 
concerned, can be dealt with, again, because there is a 
partnership that exists, one, to educate the players, number 
two, to help those who have a problem, and they have the 
opportunity to come forward and be helped. But, you know, if 
people make mistakes over and over again, then you have to deal 
with it.
    It's a privilege to be a professional athlete. It is not an 
entitlement, and rules are rules.
    Senator McCain. If my colleague would yield----
    Senator Dorgan. Yes, of course.
    Senator McCain.--I've just been handed a piece of paper 
that says the NBA does consider androstenedione illegal, in 
answer to your question.
    Senator Dorgan. Yes, thank you.
    Mr. Fehr, let me ask you, the articles that have been 
written in recent days, and the follow-up articles as well, 
have quoted some wonderful star players in baseball who also 
expressed great regret that others are taking banned 
substances. And, I mean, you know, I said at the start, it's 
not my interest in tarnishing baseball. I love baseball. I 
think it's a wonderful game, and it's played by splendid 
athletes. And, as I indicated, some of the great stars in 
baseball have also expressed great regret about others who use 
steroids.
    As you begin your meetings with baseball players, let me 
ask you, generally, do you think--is there a problem here? Is 
this much ado about nothing? Is there a problem? If so, is it a 
big problem? Can you give me a sense of what you and what the 
players think about this issue?
    Mr. Fehr. Am I supposed to pay attention to the light that 
went on in front of you? I'm not--if I'm not, I won't. It just 
happened to go on. I don't know if I have a time limit.
    Senator McCain. Not when the Chairman asks the question.
    Mr. Fehr. Okay. Let me respond, if I may, on several 
different levels, because I think it's obviously an important 
question. First of all, I think that, in the meetings with 
players, we will have a frank and open discussion. I wouldn't 
expect to make public the nature of those discussions. Players 
have a right to treat their discussions with their staff and 
their executive director as confidential, and they expect me to 
do the same. And the results of those meetings will, in large 
part, although not entirely, drive the collective bargaining 
position that we will eventually take.
    Secondly, there are, I think, perhaps three levels of 
problems. One is a public perception problem, and that's a 
problem which exists whether or not there's an underlying 
problem that has to be dealt with in some appropriate way that 
we need to look at in a fashion that everyone can live with, 
first of all. Secondly, it may well be that we have to 
reexamine in some fundamental way the education efforts that we 
have been doing--that's one of the subjects that undoubtedly 
will come up in my discussions with players across the board--
and translate that into the collective bargaining discussions 
we have with the clubs.
    Third, though, if you'll permit me, I want to widen the 
discussion a little bit, beyond baseball. As is apparent from 
the testimony of every witness you have in front of you today 
and from the various bottles of substances that are on my left 
about four feet down the road, something changed in this 
country in the last ten years.
    What changed, in my judgment, are two things. A wide 
variety of substances are now available, apparently across the 
board, without the ordinary kinds of caution which have 
previously attached to the sale of substances, whether it's an 
age restriction, whether it's a warning label, whether it's 
``Don't take, except on the advice of doctor,'' whether it 
should be by prescription, whatever it is.
    The second thing which has happened is mammoth, widespread, 
monumental, across-the-board advertising to the extent that 
what we now see on television--all day, every day, and in every 
magazine that you pick up--is an ad. And the ad says, ``Feel 
bad? Here's this pill.'' If it's a prescription, ``Go see your 
doctor.'' If it isn't, ``Go the health food store and take 
it.'' That's a fundamentally different scenario than I faced 
growing up and that I suspect you faced growing up. And that's 
a reality which I think relates to whether or not there needs 
to be substantially greater regulation.
    We've had comments about the effects on kids and on women 
of the testosterone precursors. And, in my testimony, I had 
indicated that we think that needs to be looked at all over 
again. In the research we did that was jointly funded with 
Major League Baseball, and on the advice of the doctors that 
have talked to both of us, I can find or have no memory of any 
redeeming quality for any of these substances for a child or 
certainly for a woman. And yet there they are. And so I think 
we have problems on a multiplicity of levels.
    And, with all due respect, I don't think the problems that 
are being described now are going to be solved based upon 
whether or not baseball gets their collective bargaining 
agreement. That's a problem we'll have to deal with on our own 
for baseball, but the problems are rather more widespread than 
that.
    Senator Dorgan. Senator McCain?
    Senator McCain. Thank you, Mr. Chairman. Mr. Manfred, I 
appreciate your testimony very much, but there's something I 
don't quite understand. If Major League Baseball feels as 
strongly as you say they do about testing athletes, why would 
you agree to a contract with the players that prohibits 
testing?
    Mr. Manfred. The last collective bargaining agreement that 
we reached did not contain a provision that allowed testing. 
The contract doesn't prohibit it, but it doesn't have a 
provision that would allow us to go ahead with it. If you 
recall, that contract was a product of a long and difficult 
strike. And, frankly, the issue of steroids has become one that 
has been higher on the horizon since the conclusion of that 
agreement in the mid-1990s.
    Senator McCain. Mr. Fehr, I understand and appreciate your 
comments, particularly concerning the confidentiality of your 
discussions with the players, and I understand that you will be 
visiting every team in both leagues shortly. Can you at least 
assure the Committee that this will be a very, very important 
item of discussion with the players?
    Mr. Fehr. I have no hesitancy at all about doing that, I 
think, for two reasons, one of which is that the players will 
insist on it, given the publicity that's happened. And the 
second one is that we have an obligation to bargain this issue 
in good faith and have every intention of doing so. So while we 
have a lot of issues to discuss, I think as you know and 
perhaps the other Members of the Committee know, there are more 
than a few things that divide us. I expect this to be a very 
significant topic of discussion, yes.
    Senator McCain. And you will perhaps carry the message 
that, I think, is prevalent, not so much in this Committee, but 
in the United States of America, that the credibility of their 
performances and the confidence of the American people in the 
reliability and validity of the game is at stake here.
    Mr. Fehr. I----
    Senator McCain. Let me just--before you answer--Shilling 
says that muscle-building drugs have transformed baseball into 
something of a freak show. Quote, ``You sit there and look at 
some of these players, and you know what's going on,'' he says. 
Quote, ``Guys out there look like Mr. Potato Head, with a head 
and arms and six or seven body parts that just don't look 
right. They don't fit. I'm not sure how steroid use snuck in so 
quickly, but it's become a prominent thing very quietly. It's 
widely known in the game.''
    Isn't that pretty damning comment on the part of one of the 
greatest athletes in baseball? And I'll let Mr. Colangelo speak 
after you respond.
    Mr. Fehr. I make it a habit, and also by direction from my 
membership, not to comment on comments that individual players 
make. And so the players are perfectly able, and do, speak for 
themselves. And I don't attempt to comment on that.
    I will say players read the newspapers. They watch 
television. They understand the visibility and the significance 
that this particular controversy has at this point in time. And 
whatever else I do, I fully and accurately report feelings 
transmitted to me, certainly in hearings like this, and I will 
do so.
    Senator McCain. Thank you, Mr. Fehr.
    Mr. Colangelo?
    Mr. Colangelo. Senator, I'd go as far as to say, based on 
my own conversations with my players, that they're basically 
crying out for some program that would involve testing--as long 
as there is privacy. And I'm not speaking for any one player. 
I'm just saying, generally speaking, conversations with my 
players, they recognize it's an issue, it's a problem, and they 
would like to see it resolved. So this is--this is not rocket 
science.
    To me, this is a very simple thing. There's a problem. One 
side is willing to solve the problem. We need the cooperation 
of the Players Association to resolve the issue. And hopefully 
it will be done in collective bargaining during this period of 
time.
    Senator McCain. Mr. Shorter, I want to thank you for the 
credibility and the information you bring before this 
Committee. In the interest of straight talk, I would like to 
say that I don't know what legislation could be contemplated by 
this Committee or any Member of Congress to force anything on 
the baseball players and the Players Association. Maybe we 
could think of something.
    But I think that the purpose of this hearing is to try to 
ensure that the American people are informed, not only of the 
problem, but as Mr. Shorter points out, and Mr. Greisemer, that 
there are solutions to this issue. It's not an unsolvable 
issue. Is that right, Mr. Shorter?
    Mr. Shorter. That's right. Really the place to start is a 
very simple amendment of the Act to give the Attorney General 
the power to decide if a precursor should be included. And this 
simply--as we read the act, and our legal people read the act, 
in essence, now it exists that precursors in the--very simply 
put, a precursor, in the course of manufacturing, is banned. If 
there's a controlled substance and, in the course of 
manufacturing, a precursor identified in the manufacturing 
process is banned.
    So, it seems just logical and common sense that your body 
is a pretty good manufacturing organism. That process extends 
over into the human body, so that a precursor in your body 
manufacturing that prohibited controlled substance should also 
be banned. It's not rocket science.
    Senator McCain. Mr. Greisemer, do you agree with that?
    Dr. Greisemer. Yes. In pediatrics, it's sort of beyond why 
it is banned in the manufacturing process and it's not banned 
in a 12-year-old manufacturer.
    Senator McCain. I thank you. I want to thank the witnesses. 
I think the preferred way that all of us would like to see this 
aspect of the problem cured is a fairly rapid agreement between 
the owners and the players along the lines of the NBA and the 
NFL.
    Mr. Shorter raises a broader issue and is involved in a far 
broader issue, and perhaps that should be the subject of 
further investigation by the Congress.
    I thank the witnesses for being here today.
    Senator Dorgan. Senator Fitzgerald?

            STATEMENT OF HON. PETER G. FITZGERALD, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Fitzgerald. Thank you, Mr. Chairman, and thank you 
for holding this hearing. I think it's an important hearing. 
And I want to thank all of the witnesses for being here.
    I have a ten year old son who is an absolute baseball 
fanatic, and he knows most of the statistics of almost every 
major league player in both leagues. I guess he really leans 
more toward being a White Sox fan. I tell him that, as the son 
of a Senator from Illinois, he has to be both a Cubs and a 
White Sox fan. I actually grew up a Cubs fan, as did my father.
    We have frequent discussions in which we try to link 
current players that my son is growing up watching, with with 
the players that I grew up watching, as well as some baseball 
legends of old like Babe Ruth and Ted Williams. My son has 
always taken the position that the players today are much 
better than the players that I grew up watching. I remember 
telling him about Ernie Banks, who was the star for the Cubs 
when I was growing up. Ernie, several times, hit over 40 home 
runs. I think, in a couple of years--maybe in 1956, when he won 
the MVP championship, or in the late 1950s--I think he hit over 
50 home runs. My son said, ``Well, that's nothing.'' He now has 
14 players to point to, who, in the last five years, have hit 
over 50 home runs. Only 34 players in the history of Major 
League Baseball have hit over 50 home runs in a season. So, I 
wonder about the validity of comparing current players with 
those legends of old that many of us grew up watching. It is 
very distressing to read all the publicity about possible 
steroid use in baseball.
    Mr. Fehr, I'd certainly like to encourage the players' 
union to rapidly try to address this issue. I know you have to 
represent views on both sides, but I'm aware that there are 
some players, such as Frank Thomas, who is a two-time league 
MVP, and plays for the White Sox, who have spoken out in favor 
of mandatory testing. He has pointed out that players who don't 
want to use steroids are at a competitive disadvantage, because 
others are using steroids. What, Mr. Fehr, do you think can be 
done to protect the interests of those, such as Frank Thomas, 
who don't want to use steroids?
    Mr. Fehr. Thank you, Senator. First of all, I think it's a 
very difficult trick to be both a White Sox and a Cubs fan, so 
I have some sympathy for your son. Usually a single rooting 
interest is much easier to have.
    Secondly, on the real focal point of your question, 
unfortunately I'm not in a position in which I can talk very 
much about discussions among players on these issues and the 
kinds of questions that have been raised by Mr. Thomas to which 
you've referred. I can assure you that we will do our very best 
to find a way through this. It's part of the collective 
bargaining process. We're committed to it. I can't tell you 
what the result is going to be ahead of time, but it's 
obviously a serious issue which will be treated as such.
    Senator Fitzgerald. Do you think members of your union, now 
that they see the Senate holding hearings on this, understand 
that, if they were to oppose mandatory drug testing, that they 
could be inviting congressional action that would probably be 
more draconian than a voluntary program or an internal 
agreement amongst the players and owners in Major League 
Baseball? Are the players aware that they could have the force 
of law requiring some kind of mandatory testing?
    Mr. Fehr. Senator, I think about the best way I can respond 
to that is this. I will certainly transmit your comments. They 
speak for themselves better than I can. And we will have to be 
committed to the bargaining process. Unfortunately, there's no 
way to respond to that question other than in that fashion.
    I do want to suggest, however, that, depending on how you 
approach this, there are degrees of complexity to this problem 
which don't lend themselves to perhaps as simple of an analysis 
as people might otherwise want to consider.
    For example, Mr. Shorter mentioned that you can have 
individuals that test positive in the Olympics for banned 
substances who effectively had no idea what they were doing. 
One of the things I understand to be the case is that you can 
test for nandrolone as the result of using creatine  what would 
pass in this day and age as an ordinary, garden variety, fully 
lawful protein or dietary supplement, in that fashion. And 
these things have to be worked through.
    I can assure that, as the players always have, as they 
debate and discuss among themselves and talk to one another and 
eventually reach a consensus, the views of everyone will be 
taken into consideration, and I will certainly transmit the 
views of this Committee and your comments.
    Senator Fitzgerald. Mr. Shorter, Mr. Fehr points out that 
there are difficulties in implementing this testing. I think 
that someone pointed out to me that some individuals just 
naturally have a higher level of testosterone in their bodies 
and could result in a false positive for steroid usage. How do 
you focus our testing so that there are not a lot of false 
positives?
    Mr. Shorter. Well, I--again, I would like to have the 
doctor comment once I'm done so he can tell me what I said 
incorrectly.
    [Laughter.]
    Mr. Shorter. But the number of false positives is not that 
great, to my level of understanding of this. And it really does 
come around in the supplement side of it. This doesn't have to 
do with false positives for banned substances. There aren't 
many.
    Testosterone, for an example, there is a test that can show 
whether or not you are taking something that's produced--
synthetic testosterone--I mean, if you've taken synthetic 
testosterone. The difficulty is in having a test that shows if 
your testosterone is elevated. It's a little confusing here, 
but if your test isn't specific for androstenedione, if your 
body naturally produces the testosterone, a test showing that 
it's synthetic won't show it, you see. So you have to really 
target your test.
    Now, that's different from saying whether or not you have 
false positives. It's really a question of deciding exactly 
what it is you want to test for and developing a test for those 
specific things. But that's not that difficult. The list is not 
as extensive as people would believe.
    And just another point--just a personal point on this--I 
think the perception--the misperception over the last 15 or 20 
years has been in part of the problem. People say, ``Well, you 
know, the athletes will just go find something else.'' So 
there's not only the question of false positives. It's, ``Oh, 
there are a myriad of drugs out there. You ban one, they're 
just going to find another.'' It's not true. It really was a 
question of the testing being precise. Perhaps some people feel 
that maybe some of the agencies doing it weren't particularly 
interested in finding certain substances, so they wouldn't 
develop tests for those. But the list is not that large. It's 
not that complicated.
    And I guess another issue that really hasn't been 
emphasized is the fact of independence. If you're going to 
test, we truly believe those doing the testing have to be 
independent. They have to be independent. You can cite any 
number of reasons why. But common sense alone tells you that if 
whoever is doing this, if they have their list and they're 
independent, that risk of false positives is not that great. 
That can be dealt with, and the procedures you have can be 
uniform, so you're not worried about all the other procedural 
problems and, from the legal perspective, loopholes. And so you 
can. So I don't really think it's a question of false positives 
as much as a question of independence.
    Senator Fitzgerald. Now, you did make the point, Mr. 
Shorter, that you thought Congress should act right away to 
amend the act that governs over-the-counter substances and that 
we should give the Attorney General the power to decide if a 
precursor should be included in the list of banned substances. 
Do you think that Congress should act right now to ban those 
substances that are sitting in front of you?
    Mr. Shorter. Oh, absolutely. I mean, again, if you come 
around to androstenedione, the reason it exists was you had a 
program where an entire Olympic team--to be on the Olympic team 
in East Germany from 1974 to 1989, you had to be on their drug 
program. You had to be taking the drugs.
    Senator Fitzgerald. And that's what Mark McGwire used?
    Mr. Shorter. And this is what Mark McGwire used. It was 
developed by the East Germans as a very simple way of getting 
testosterone into their athletes.
    Senator Fitzgerald. Mr. Fehr, do you think those substances 
should be a focus of the Major League Baseball's discussions on 
what substances should be banned?
    Mr. Fehr. Whether I think so or not, I think it's clear 
that they will be a subject of our discussions.
    Senator Fitzgerald. Okay.
    Mr. Fehr. But let me make a further point and emphasize 
something that Mr. Shorter has said and that was reflected in 
my testimony and Mr. Manfred's testimony and the booklet that 
we jointly prepared, which was distributed to players, which 
was attached to both of ours. We think that the reason 
androstenedione and DHEA and similar compounds are not 
regulated now is probably an accident. Probably nobody thought 
about it at the time. And in my testimony, I indicated that it 
probably is time to review that decision. I'm not personally 
familiar enough with the act to know whether Mr. Shorter's 
suggested legislative solution is the right one, but we invite 
you to reexamine that.
    And let me put a deliberate point on it, if I can, in this 
way. Sooner or later in my discussions with players and in 
their discussions with one another, someone will raise the 
following question. They will say, ``Are you telling me that if 
the Congress of the United States sees fit not to regulate X, 
whatever X is, and make it freely available at the drugstore 
down the street, and I'm an adult, and I'm of age, that somehow 
I can't buy it?'' Because what we do in this country is we know 
there are risks to things, and we allow adults to make choices. 
If it ought to be regulated, we invite you to regulate it. If 
it ought not to be on the shelves, don't let it be on the 
shelves.
    Senator Dorgan. Would you yield on that point?
    Mr. Fehr, but that raises the question of, for example, 
andro, which is banned in the NBA, but perfectly legal to go 
purchase. It is not banned in baseball. By implication, I 
guess, you're suggesting that some of the substances that are 
banned by the NBA, under any type of testing program in Major 
league Baseball, should be allowed as long as they are not 
considered illegal or prohibited from purchase by the United 
States Congress. Is that what you're saying?
    Mr. Fehr. What I am saying, Mr. Chairman, is something a 
little bit different than that. I am saying a couple of things. 
First of all, we will discuss all of these issues, as we're 
obligated to do and as I've indicated that we are fully 
committed to doing.
    But I do want to make the following point. If these 
substances have the dangers that they are reputed to have, and 
we know of nothing in our research which suggests that that is 
wrong, then that suggests that there is a legislative or 
administrative remedy here which could go a long way toward 
addressing the problems, especially with children, that we've 
been talking about. And we invite you to reconsider that. There 
is, in fact, something the Congress can do.
    Senator Dorgan. Senator Fitzgerald?
    Senator Fitzgerald. I just would like to make the point, 
Mr. Chairman, that maybe we should have a follow-up hearing on 
the issue of whether Congress should act immediately to ban the 
over-the-counter substances in front of Mr. Shorter. Maybe we 
should hear from the other side on this issue. I'm sure the 
manufacturers and retailers of those products are probably 
bitterly opposed to such action. But those materials--as the 
doctor pointed out, too--can be purchased by high school kids. 
Is there any age requirement to go in and buy these products? 
So anybody--a 12 year old could go in a health food store and 
buy that stuff so they can look like Mark McGwire and hit like 
Mark McGwire. I think that would be a good follow-up hearing, 
Mr. Chairman.
    And I want to thank all of the panel members here. I think 
this has been very informative. I would urge both sides in 
Major League Baseball negotiations to address this issue. I'd 
urge the owners and the league to be tough on this issue, too, 
and not take no from the players very easily.
    And thank you all for being here.
    Senator Dorgan. Mr. Colangelo, you wanted to comment?
    Mr. Colangelo. Well, whether or not something's available 
over the counter--you know, it's like looking for someone to 
help solve our problem. That's not the issue, in my mind. This 
is two parties, the Players Association and the owners, 
agreeing to ban certain substances. And there's a reason for 
that: not only what's been discussed here, the health of the 
individuals, but also, players don't want another player to 
have a competitive edge, and that's a big issue. That, in 
itself, is good enough reason for us to monitor our own 
business, and it would be great to have Congress help out. And 
certainly it's going to have impact with the over-the-counter 
sales, but that really should not have an influence on the 
agreement that should be made between the Major League Players 
Association and the owners.
    Senator Dorgan. Let me ask a couple of additional 
questions, then.
    Mr. Schwab, I read in the sports magazines and journals 
these days about high school football teams having linemen of 
250 and 300 pounds, and I wonder about 300-pound high school 
linemen. How do you find them? Where do you get them? What are 
they taking, if anything? Can you tell me? I suspect you don't 
have statistical evidence, but give me your impression of what 
is happening in high school sports, especially with respect to 
football, where we see so many very large football players at 
the high school level.
    Mr. Schwab. Like you, I share your amazement at how high 
school seniors who are 18 years old are graduating and can step 
into Division I college programs and play football as freshmen. 
That is amazing to me. When I graduated from high school 20 
years ago, I was 220 pounds. And it took me two years to get to 
the point where I could play at the college level. So it's 
pretty clear to me that kids today are doing things, are taking 
supplements, taking drugs, that are helping them to get to that 
level to be able to play at that next level at very early ages. 
And it's not uncommon to see 300-pound high school athletes 
these days.
    Senator Dorgan. But a 300-pound athlete who is taking 
supplements is not the same as a 300-pound athlete who is 
taking banned steroids. I think Mr. Shorter and Dr. Greisemer 
said that they can walk into a store someplace and buy these 
precursors and take them. I'm not suggesting the health 
consequence isn't the same. I don't know the answer to that.
    But we have a situation today where many of these young 
athletes have total access to these supplements that are not 
banned. And I assume they are on the receiving end of 
advertisements. They also see their peers and other players 
using them. And I guess that's part of what Mr. Shorter and Mr. 
Greisemer talked about with respect to the danger.
    That, I guess, brings me back to this issue. Mr. Fehr, I 
was trying to ask the question. If, for example, andro is 
prohibited in the NBA, but it's not prohibited from purchase, 
you can walk in and purchase it at a store that sells vitamins 
and supplements and so on. What should be a banned substance is 
a function of what the Congress determines ought to be 
prohibited from sale.
    I'll come back to that in just a minute. But, Mr. Shorter, 
the things that you can buy over the counter in a store, in 
many circumstances, I believe, would lead someone to test 
positive for drugs in the Olympics. Is that correct?
    Mr. Shorter. Yes. I cited in my testimony, for example, 
that 41 percent of the American products tested in an IOC 
survey basically contained substances not on the label: that's 
what's so insidious here. Not on the label, that'll get you 
banned.
    Now, I must say, our testing techniques are very, very 
sophisticated. We can detect very, very minute quantities, and 
probably more than a lot of other testing that goes on. And 
that brings around the issue whether or not it's in the 
manufacturing or if you're in an industry that does not have 
the same regulation, let's say, as prescription drugs, whether 
or not there might be the temptation to perhaps lace some of 
your products so that they might be the talk of the health club 
rather than your competitor's product. So that opens up a whole 
new area.
    But the net result is, we cannot recommend to any athlete--
and at this past Olympic games, just about all the major 
nations of the world said to their athletes at the Salt Lake 
City games, ``Don't take any supplements. You don't know what's 
in them. There's a good chance you'll have something in your 
body to get you busted.''
    Senator Dorgan. Dr. Greisemer, you talked about very young 
people, in junior high school, taking supplements. Can you 
describe that? Are these young football players? Young 
athletes? What kind of athletes are they, and what kind of 
supplements are they taking, and how young are they?
    Dr. Greisemer. We've had incidents of use and self-reported 
incidents of use down in 5th grade, so 11 and 12 years old. And 
it's easy for these kids to buy these products at health food 
stores, which has been demonstrated by one of the staff that 
you saw, his 11-year-old son. We see it predominantly in 
football players, but it's now getting fairly pervasive. We're 
even seeing some of the young ladies take this just for body 
image enhancement. And in some reports in younger middle school 
or high school students, approximately 50 percent of students 
are now just taking this for physique enhancement, and they're 
not even playing sports. It's very pervasive.
    Senator Dorgan. Mr. Schwab, the same question?
    Mr. Schwab. I think that the danger with these supplements 
is that it's not always the high level athletes that are using 
these supplements. It is also the marginal athlete who is 
trying to gain that edge--the wannabe athlete, the one that 
maybe isn't 6 foot 8 and 220 pounds, that isn't gifted 
genetically. These are also the kids who are using the 
supplements, and in very high numbers.
    Senator Dorgan. Mr. Fehr, I wanted to allow you to expand 
on the point I made earlier. If there was some kind of an 
agreement in a major sport that only those substances that are 
prohibited for sale by the Congress would be banned, you would 
still, I assume, have performance-enhancement drugs available 
to athletes. I mean, that's why I assume that, and I don't know 
this, but I assume the NBA puts andro on their list because 
they feel it's a performance-enhancing drug, and they don't 
want their athletes to be using it to enhance performance 
artificially. So can you respond to that?
    Mr. Fehr. Yeah, three things, Mr. Chairman. First of all, I 
don't speak for, and don't purport to speak for, the NBA 
players or anyone other than my own constituency, so I'm not 
going to speak to those issues. I assume they do what they do 
for reasons that they believe are good and sufficient to 
themselves.
    I think Mr. Manfred is right, that, first of all, the 
experience we have with a lot of the kind of substances we've 
just been discussing is a product of the period of time since 
the last collective bargaining agreement. And the mere fact 
that something is not prohibited by the Congress does not mean 
it should not be discussed in bargaining, et cetera. I think it 
will be. That's first.
    Secondly, that does not resolve the question which may 
arise from time to time, which is, ``If this substance is not 
prohibited, and if I'm of a certain age, is that not a choice 
that I should make?'' Now, to ask the question doesn't answer 
it, but there are lots of things we say in this country that 
are different. You can't buy alcohol when you're in 5th grade. 
You can't buy tobacco when you're in 5th grade. You can't 
advertise tobacco to kids. You can't do any of that stuff.
    Third--and this is most important point, I think, for me. 
And we all have kids, and this is why I think this is a much 
more significant issue than just baseball, although that's 
where the publicity has been. In fact, if children are using a 
lot of these substances, and we've just been talking about 
androstenedione, it is in large part because 11-year-olds can 
walk into stores and buy them. And there's no getting around 
that. And that is something that Congress can do something 
about, which is why we invite you to take a look at it. It 
doesn't answer the question as to what you do in baseball. But 
I respectfully suggest it's a much bigger question than what we 
do in baseball.
    Senator Dorgan. Mr. Manfred?
    Mr. Manfred. I think, from our perspective, it is 
important, regardless of what Congress does with respect to 
this over-the-counter issue, that that issue should be dealt 
with in the short term in the collective bargaining process. 
And I really say that for two reasons.
    First of all, in terms of testing, you can test for andro 
with the same type of accuracy that you can test for any 
anabolic steroid. And, in fact, most scientists believe that it 
is, in fact, an anabolic steroid, which takes me to the second 
point.
    Those over-the-counter substances, in terms of their impact 
on the body and the impact on the play of the game, have 
exactly the same effect as steroids. And so, while there may be 
this flaw in terms of the regulatory process, I think it's 
impossible for us to look the other way and/or to wait for that 
flaw to be fixed. It's an issue that needs to be addressed 
privately, because they, in effect, are steroids.
    Senator Dorgan. Let me conclude by saying that we should 
never, and can never, and will never take the joy out of 
sports. Every young boy or girl in this country aspires to look 
up to a hero in sports and to emulate them and to play sports. 
And it's very important for us to understand the context of a 
hearing of this type.
    The Commerce Committee, in this Subcommittee, has sports as 
its jurisdiction. We have spent more time, perhaps, on Olympic 
issues than others in past years, especially on the anti-doping 
issue. But Senator McCain had suggested, and I agreed, that we 
should hold a hearing of this type because I think that, while 
the recent discussion has been about baseball, there has been 
broader discussion about the use of steroids in sports and the 
use of performance-enhancement in sports. It has a powerful 
influence on young people in this country, an enormous 
influence on our youth.
    And so the question is, what's happening? What can be done 
about it? How can we apply public pressure? How can the 
American people have a voice and a role in applying public 
pressure to achieve the right result? And the right result, it 
seems to me, is drug testing: rigorous drug testing. And to say 
to all athletes, professional athletes, and especially to young 
athletes, that sports ought to be played on a fair basis, 
without performance-enhancing drugs. And I think everyone 
agrees on that point.
    So my hope is that this hearing will contribute to some 
understanding and help develop some pressure with respect to a 
number of areas of sports to do more testing and to send a 
message, Dr. Greisemer and Mr. Schwab, to those young kids 
across this country that this is not the way to succeed in 
sports.
    I want to thank all of you. You've come from, in many 
cases, across the country to testify. And, Mr. Fehr, you're 
busy. You've got meetings to begin tomorrow. Mr. Colangelo, 
you've traveled halfway around the country. You should be 
smiling broadly, because you have a North Dakotan, Rick 
Helling, who you've added to your staff at bargain prices, and 
he's winning almost every outing these days. We're very proud 
of him.
    But let me thank all of you who have come today. This 
Subcommittee will be discussing this issue in some detail in 
the future, as well.
    This hearing is adjourned.
    [Whereupon, at 11:36 a.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
